<html>
<title> - REGIONAL INSECURITY: DHS GRANTS TO THE NATIONAL CAPITAL AREA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
      REGIONAL INSECURITY: DHS GRANTS TO THE NATIONAL CAPITAL AREA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 15, 2006

                               __________

                           Serial No. 109-193

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
30-591                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 15, 2006....................................     1
Statement of:
    Foresman, George W., Undersecretary for Preparedness, 
      Department of Homeland Security; Edward D. Reiskin, deputy 
      mayor for public safety and justice, government of the 
      District of Columbia; Robert P. Crouch, Jr., assistant to 
      the Governor for the Commonwealth preparedness, 
      Commonwealth of Virginia; Dennis R. Schrader, director, 
      Governor's Office of Homeland Security, State of Maryland; 
      and David J. Robertson, executive director, Metropolitan 
      Washington Council of Governments..........................    33
        Crouch, Robert P., Jr....................................    68
        Foresman, George W.......................................    33
        Reiskin, Edward D........................................    53
        Robertson, David J.......................................    71
        Schrader, Dennis R.......................................    70
Letters, statements, etc., submitted for the record by:
    Clay, Hon. Wm. Lacy, a Representative in Congress from the 
      State of Missouri, prepared statement of...................   109
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   124
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia:
        Prepared statement of....................................     4
        D.C. Resolution 16-677...................................   113
    Foresman, George W., Undersecretary for Preparedness, 
      Department of Homeland Security, prepared statement of.....    37
    Maloney, Hon. Carolyn B., a Representative in Congress from 
      the State of New York, prepared statement of...............    18
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    26
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................    14
    Reiskin, Edward D., deputy mayor for public safety and 
      justice, government of the District of Columbia, prepared 
      statement of...............................................    56
    Robertson, David J., executive director, Metropolitan 
      Washington Council of Governments, prepared statement of...    74
    Ruppersberger, Hon. C.A. Dutch, a Representative in Congress 
      from the State of Maryland, prepared statement of..........   127
    Towns, Hon. Edolphus, a Representative in Congress from the 
      State of New York, prepared statement of...................   120
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................     8


      REGIONAL INSECURITY: DHS GRANTS TO THE NATIONAL CAPITAL AREA

                              ----------                              


                        THURSDAY, JUNE 15, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Mica, Gutknecht, 
Platts, Foxx, Schmidt, Fossella, Wolf, Waxman, Maloney, 
Cummings, Kucinich, Clay, Watson, Van Hollen, Ruppersberger, 
Higgins, Norton, and Moran.
    Staff present: David Marin, staff director; Keith Ausbrook, 
chief counsel; John Hunter, counsel; Rob White, communications 
director; Andrea LeBlanc, deputy director of communications; 
Shalley Kim and Wimberly Fair, professional staff members; 
Teresa Austin, chief clerk; Sarah D'Orsie, deputy clerk; Leneal 
Scott, computer systems manager; Kirstin Amerling; minority 
general counsel; Karen Lightfoot, minority communications 
director/senior policy advisor; Michael McCarthy and Kim 
Trinca, minority counsels; Richard Butcher, minority 
professional staff member; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Chairman Tom Davis. The meeting will come to order.
    I would ask unanimous consent that Mr. Moran, Mr. Wynn, Mr. 
Cardin, Mr. Hoyer, Mr. Fossella and Mr. Wolf be able to 
participate in today's hearing. Without objection, it is so 
ordered.
    The committee will come to order. On May 31st, the 
Department of Homeland Security announced fiscal year 2006 
grant allocations for States and eligible high-risk urban 
areas. For the first time, grant awards reflected the use of 
relative risk and effectiveness criteria in an effort to better 
target Federal investments and make measurable progress toward 
the National Preparedness Goal. The new elaborate evaluation 
process used by DHS produced some unexpected, seemingly 
punitive results, particularly for the National Capital Region. 
We convene this morning to shed some needed light on how DHS 
assessed risks and needs in a region that has already been 
attacked and remains an attractive target for terrorists.
    Without question, the Nation's Capital bears a 
disproportionate burden in terms of public safety challenges 
and Homeland Security costs. Comprised of 12 local 
jurisdictions, two States and the District of Columbia, this 
region must be prepared to protect critically important 
facilities and monuments of high operational and symbolic value 
to the entire Nation: the White House, the Pentagon, the 
Congress, the Supreme Court, to name just a few. The tragic 
events of September 11, 2001, and the anthrax attacks that same 
year unfortunately confirmed our unwelcome status as a prime 
target.
    Yet one discretionary DHS grant program allocated on the 
basis of risk, the Urban Areas Security Initiative, yielded a 
reduced award to the National Capital Region this year: $47 
million. Last year, the region received $77 million. True, 
Congress appropriated 14 percent less for the program this 
year, but the 40 percent reduction suffered by the NCR is 
clearly the product of something more than tight budgets.
    According to DHS, this region stands in the top 25 percent 
of urban areas at risk in terms of both critical assets and 
geographic vulnerabilities. But the effectiveness of the 
proposed grant expenditures was ranked by DHS reviewers in the 
bottom 25 percent of all similar investment strategies. Leaders 
in this region and in other high-risk jurisdictions like New 
York and Los Angeles are asking, what happened? Why did some 
grant justifications score so poorly under the DHS system? And 
how much did secret reviews of unquestionably subjective 
factors, like relevance, innovative necessary and feasibility, 
undermine efforts to address real security needs?
    In attempting to implement a risk-based grant allocation 
system and improve State and local response capabilities, DHS 
appears to have built a dangerous house of mirrors for the 
unwary, an overly elaborate system of marginally relevant 
evaluation criteria that equates the risk of terrorism with the 
risk of filing a bad grant application. The system seems to 
have taken little or no account of the most obvious indicator 
of risk imaginable, that the Nation's Capital has already been 
attacked.
    Last week, the chairman of the 9/11 Commission, appointed 
by President Bush, former New Jersey Governor Thomas keen, said 
the grant awards to D.C. and New York appeared to ``defy common 
sense.'' The process so far has also defied clear explanation, 
as DHS officials have offered different accounts of what 
factors produced the surprising allocations and what applicants 
might have done to improve their chances.
    So today we seek to bring greater transparency to an 
important Homeland Security program. The effort to apply sound 
risk analysis and risk management standards to Homeland 
Security grants is commendable, and overdue. Scarce resources 
need to be focused on development of tangible and sustainable 
preparedness and response capabilities. But regional readiness 
to meet the threat of terrorism is not enhanced by wide, 
unpredictable and disruptive funding swings. At-risk cities and 
regions need to know their grant applications are being fully 
and fairly evaluated. The rules of the game should be clear. 
Now, grant applicants can only guess at the outcome of ``black 
box'' procedures fueled by classified threat information and 
secret peer reviews.
    The Department has proposed a sustained and detailed debate 
on the difficult process of assessing risk, evaluating need and 
judging the effectiveness of local plans to build capabilities. 
We take them up on that pledge. Officials from the National 
Capital Region are also here to give their perspectives on 
their application and its evaluation. We look forward to a 
productive discussion of how DHS and this region plan to work 
together to address the National Capital area's unique security 
needs.
    Let me just remind everybody, for the inaugural costs last 
year, 2 years ago, the money came out of the Department of 
Homeland Security grant money to the region. This was a burden 
shouldered by the city as well. Nothing was taken into account 
there, no reimbursements except to take it out of Homeland 
Security moneys at that point.
    I would now recognize the distinguished ranking member, Mr. 
Waxman, for his opening statement.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.001
    
    [GRAPHIC] [TIFF OMITTED] T0591.002
    
    Mr. Waxman. Thank you, Mr. Chairman, for holding this 
hearing, examining the drastic cuts in Homeland Security 
funding for the National Capital Region. The reduction in 
funding is sudden and unexpected, and it presents a serious 
challenge to the State and local officials work to protect this 
area. It also calls into question the priorities of this 
administration.
    The Department of Homeland Security says that one reason 
for the cuts to D.C. is that the level of the risk for the 
region is lower relative to other cities according to 
classified computer programs and matrixes that the DHS uses. 
Well, this is difficult to understand. The Nation's Capital has 
enormous symbolic importance and is the center of our 
government and has already been the sight of a deadly attack. 
It is hard to see how it could be downgraded like this, and it 
is hard to have confidence in the secret system that the 
Department is using to rank risk when it comes to conclusions 
like this.
    Ever since September 11th, I have been asking the 
administration to provide Congress with a comprehensive threat 
and risk assessment that we could use to inform budget 
decisions. To date, we have received a lot of rhetoric about 
how important it is to make sound risk-based decisions, but we 
have never seen the proof.
    Local officials also suffer from the lack of transparency 
at the Department of Homeland Security. According to DHS, 
another reason for the cuts to D.C. was that the region's 
proposal scored poorly for effectiveness. But officials from 
D.C., Maryland and Virginia will testify today that they are 
baffled about why their proposals received low marks from DHS. 
Ironically, one of the criteria for effectiveness that DHS 
claims to examine is sustainability. How could local officials 
build sustainable programs when DHS funding for them varies 
wildly from year to year?
    To protect our Nation, we need to think outside the narrow 
box the administration wants to put us in. The Department is 
proposing to increase funding for Los Angeles, which is 
absolutely right. The answer to the underfunding of D.C. is not 
to take funds from other high priorities. Instead, we need to 
look at our national priorities.
    Last week, the Senate tried to pass a complete repeal of 
the estate tax. That boondoggle for the wealthiest families in 
the United States would have cost over $1 trillion. Yet we are 
being told today that we can't afford $30 million more to 
protect the Nation's Capital from terrorist attacks.
    Earlier this year, we learned that auditors had challenged 
over $250 million in charges by Halliburton, yet the 
administration went ahead and paid them anyway. If we had saved 
that money, we would have had more than enough to fully fund 
Homeland Security grants to all of our urban areas.
    Just this week, we learned that FEMA paid more than $1 
billion in fraudulent claims in the aftermath of Katrina 
because the administration failed to have even basic controls 
in place. If we had spent these funds responsibly, we could 
have paid for the protections this region desperately needs.
    Ultimately, the problem our Nation faces isn't the lack of 
funds; it is a lack of accountability and a failure of 
government to be responsible stewards of taxpayers' dollars. I 
am glad we are having this hearing on how to protect the 
National Capital Region, and I hope we can get answers about 
why funding was cut so dramatically and how the threats to this 
area can be addressed. I also hope the administration and 
Congress will reassess their spending priorities so we can 
truly make this Nation safer.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.003
    
    [GRAPHIC] [TIFF OMITTED] T0591.004
    
    [GRAPHIC] [TIFF OMITTED] T0591.005
    
    [GRAPHIC] [TIFF OMITTED] T0591.006
    
    Chairman Tom Davis. Thank you very much.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I appreciate that you called this hearing. I believe, as I 
will indicate in my own statement, that the hearing you called 
today is a public service not only for this region but for our 
country because of the responsibilities of security officials 
in localities in this region.
    Actually, this is the first of two hearings by committees 
on which I serve seeking answers to the same question: How 
could a risk-based security formula lead to unusually large 
reductions in Homeland Security funds for al Qaeda's favorite 
targets? Among them the National Capital Region, the sight of 
the September 11th attack on the Pentagon and site of the 
Capitol, located on this campus, where analysts believe the 
plane that was brought down in Pennsylvania was headed?
    The Homeland Security Committee has asked the mayors of New 
York City and the District of Columbia to testify on this same 
subject next Wednesday. I have asked for a face-to-face meeting 
between regional officials and Department of Homeland Security 
headquarters staff, not only to get a greater understanding of 
the basis for the DHS decisions but particularly to understand 
how the region is expected to meet its unique dual obligations 
as officials charged with preventing and responding both for 
the Federal Government and local communities.
    When the DHS grants were announced, the initial despair and 
bewilderment of residents and officials in this region quickly 
escalated to anger and outrage. The decision that was as 
astonishing as it was counter-intuitive was made with little 
explanation. We seek that explanation today.
    Regional residents and Federal employees alike have 
admirably learned to live with higher risks than their fellow 
Americans, in part because of the special effort they see from 
regional and Federal security officials and the funding they 
assumed would come annually. Among these residents are 200,000 
Federal employees from whom are drawn scores of thousands 
directly charged with the principal responsibility for 
designing and planning the National Homeland Security effort.
    This region ranks high as a target, not only because of its 
almost 4 million residents, but unlike other targeted areas, 
the entire Federal presence, including the Nation's priceless 
iconic monuments and the Capitol, the Supreme Court and the 
White House and the Pentagon, all extremely inviting targets, 
are concentrated in a few square miles in the District of 
Columbia, Maryland and Virginia. Although individual sites are 
protected by Federal police and security guards, prevention and 
response for the region where the Federal presence is located 
is up to local officials and first responders, not the Federal 
Government.
    When the Pentagon was attacked on September 11th, this 
Federal installation was completely dependent upon the largest 
fire department in the region, the D.C. Fire Department and 
other regional fire services and a helicopter and burn unit at 
Washington Hospital Center, among other local services.
    The Nation learned that local officials here had a unique 
double responsibility for their own residents as well as for 
the Nation's most valuable and priceless Federal assets. And if 
I may say so, the Congress learned that the District of 
Columbia had almost total responsibility after the anthrax 
attack in the Congress of the United States, not the Federal 
Government, no agency of the Federal Government. They were sent 
to the old D.C. General Hospital for the District of Columbia 
to figure it out when we had an unprecedented attack right here 
on the campus of the Congress of the United States.
    It is this twin responsibility that accounts for this 
region's unique obligations. It is this twin responsibility 
that most seriously raises questions about the judgment of the 
Department of Homeland Security in severely cutting the 
region's security funding. Even with the funding the region has 
received, I have spent more time than I can say worrying that 
there has not been enough time or funding to staunch, major and 
obvious vulnerabilities that mainly affect Federal employees 
who work here, not my own constituents. Working with 
appropriators, not DHS, I have gotten some but not all of the 
funding for ER One, for Washington Hospital Center, the only 
place where visitors to the Capitol and others in the region 
could be taken and isolated if there is a biological, chemical 
or other major such attack in Washington.
    The tunnels, bridges and Metro rail and bus system that are 
responsible for bringing Federal workers to and from Federal 
jobs in the District every day present major untouched and 
difficult security issues, such as preventing and responding to 
attacks and accidents involving chemical, biological and other 
hazardous substances and fires from explosives in tunnels and 
the tunnels leading to this city.
    After September 11th, a lack of interoperability here 
should be unthinkable, but that is a work in progress that 
requires additional funding. Perhaps most telling, given the 
many Federal buildings here where controversial decisions are 
made every day, is the lack of necessary equipment even for 
area bomb squads, not one of which has the equipment necessary 
to meet FEMA's top standard.
    We will hear of other vulnerabilities today. We will want 
to know whether they were considered when DHS funding decisions 
were made, and we will want to know what precisely is now 
expected from local security officials charged with major 
prevention and recovery operations in the National Capital 
Region.
    We will want to know not only because of those we 
represent; we will want to know because of the weighty, unique 
burden local security officials carry for the region where the 
Nation's most highly targeted assets are located.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T0591.007

[GRAPHIC] [TIFF OMITTED] T0591.008

    Chairman Tom Davis. Thank you very much.
    Mrs. Maloney, any opening statement?
    Mrs. Maloney. Thank you very much, Chairman Davis and 
Ranking Member Waxman, for holding this very important hearing. 
My only wish is that this hearing would not only focus on 
D.C.'s Homeland Security but also New York's Homeland Security. 
Both D.C. and New York City, their funding was cut by 40 
percent, yet by all lists, they remain target No. 1 in this 
Nation. The al Qaeda ranks them as target No. 1. Bin Laden has 
attacked New York City twice and has been caught on tape saying 
he intends to do it again. Likewise, the Capital Region has 
been attacked and suffered many other reported attempts to 
attack the Capital Region.
    Since the announcement of the Homeland Security funding 2 
weeks ago, I have heard a number of reasons why New York and 
Washington suffered such a tremendous cut. If you listen to the 
variety of explanations and excuses coming from Secretary 
Chertoff, your head will start spinning. He often contradicts 
himself.
    We have heard that New York City and D.C. had their funding 
cut because overall funding for the Urban Area Security 
Initiative has been cut, the high threat funding formula. On 
June 7th, Secretary Chertoff was quoted in the paper as saying, 
``Congress gave us about $600 million less than our grant 
programs, including $125 million less for the Urban Areas 
Security Initiative.'' While it is true high-threat funding was 
cut by 15 percent, New York and D.C.'s funding was cut by 40 
percent each while other communities saw increases of over 70 
percent.
    Also the initial formula had seven high-threat cities. That 
has now been expanded to 40 high-threat cities. Yet the 40 
high-threat cities are not on the al Qaeda list, according to 
intelligence that has been released to Congress and others.
    In fact, the cut to New York City was $83 million alone, or 
more than two-thirds of the total nationwide cut. When we have 
questioned the jump in funding for other communities, Tracy 
Henke, the DHS official in charge of the process, told me, 
``You have to understand that there is risk throughout the 
Nation.''
    I understand that risk exists outside of New York and D.C., 
but I would have preferred to have followed the recommendations 
of Secretary Chertoff when he stated in January that high 
threat grants are ``not party favors to be distributed as 
widely as possible.''
    Then there is the much talked about listing of national 
monuments and icons or lack thereof. Yet the administration 
still thinks that New York has no icons, and certainly D.C. has 
more than any city in the country. I would like them to take a 
tour of New York. The Secretary's excuse for this is that they 
listed the Empire State Building, for example, as a large 
office building and the Brooklyn Bridge as a bridge. He 
contrasts that with Mount Rushmore, a monument with much fewer 
visitors.
    To that I ask, can't our icons be listed as both? The 
Empire State Building is a large office building with thousands 
of workers, and it is also a very famous site that attracts 
hundreds of thousands of visitors and attention from 
terrorists. Al Qaeda was not videotaping the Brooklyn Bridge 
because it is a bridge. They were doing so because it is a 
bridge and a national icon on which thousands of people 
traverse each day.
    It is this kind of common sense that seems to have 
completely escaped DHS as it tried to come up with a formula 
that is as complicated as possible.
    The next reason the Department has been giving us as to why 
New York and Washington, DC, received a cut is due to our 
application. We both rank at the top for risk but at the bottom 
for our application.
    Believe me, if there is one thing D.C. and New York know 
how to do, it is paperwork. They know how to fill out an 
application. They probably file more papers on more issues in 
more areas than any area in the country. So I don't know about 
you, Mr. Chairman, but I am going to ask the city of New York 
to maybe hire Steven King next time to write our application. 
Maybe then the Department will understand the full threat to 
New York City. And D.C., as my colleague mentioned, has 
suffered other attacks, the anthrax attacks, as has New York 
City.
    So what started as a promising commitment from Secretary 
Chertoff at the beginning of this year that Homeland Security 
funding would, in fact, be based on risk has turned into one of 
the greatest displays of incompetency, and really, we cannot 
afford to be incompetent in the protection of our people and in 
our Homeland Security grants.
    I look forward to the testimony. Thank you.
    [The prepared statement of Hon. Carolyn B. Maloney 
follows:]

[GRAPHIC] [TIFF OMITTED] T0591.009

[GRAPHIC] [TIFF OMITTED] T0591.010

[GRAPHIC] [TIFF OMITTED] T0591.011

[GRAPHIC] [TIFF OMITTED] T0591.012

[GRAPHIC] [TIFF OMITTED] T0591.013

[GRAPHIC] [TIFF OMITTED] T0591.014

    Chairman Tom Davis. Thank you very much.
    Mr. Moran.
    Mr. Moran. Thank you, Mr. Chairman. Thanks for holding this 
hearing and for staying on top of this through the Government 
Reform Committee.
    It does boggle the mind that we would be cutting 
expenditures for Homeland Security by $690 million, that we 
would be taking $122 million out of the Urban Area Security 
Initiative, and then we would be paying for that $120 million 
cut by taking it all out of Washington, DC, and New York City.
    I mean, this is, as I say, it boggles the mind. I hear the 
excuses, and that is what we are going to talk about today. 
But, you know, you put it in the larger context: What are we 
doing cutting Homeland Security by $690 million? We are going 
to debate today and tomorrow 10 hours on the topic of Iraq. 
Well, Iraq, and it has been said and will be said hundreds of 
times today, I trust, had nothing to do with September 11th. 
Saddam did not attack this country. He was not harboring 
terrorists. And until we went in and invaded the country and 
occupied it, he was no threat whatsoever to the United States 
of America. And yet it is relevant because we are spending $300 
million a day in Iraq, almost $9 billion a month in Iraq. And 
how are we paying for it? We take $690 million out of this 
entire Nation's Homeland Security funds.
    We had an amendment in the Appropriations Committee, the 
Homeland Security Appropriations bill. Mr. Obey offered it. 
What it did was to completely pay for all of the 9/11 
Commission's recommendations that the President endorsed and 
the Congress endorsed. It would have paid for all of it: all of 
the public transit monitoring; all of the port security; 
instead of checking 5 percent of the containers, we would have 
checked 100 percent of the containers for radiological, 
chemical or biological threats, rail security, on and on. It 
would have paid for all of it.
    You know how we were going to offset it? The people who 
earned more, more than $1 million a year in this country, get 
$114,000 annual tax cuts in addition to all the other tax cuts 
they get. This is just the new tax cuts we passed. Instead of 
getting a $114,000 tax cut a year, they get $101,000; a $13,000 
reduction to people making more in tax cuts than $1 million a 
year. That would have paid for all of the 9/11 Commission's 
Homeland Security recommendations. Now, it was defeated on a 
party line vote, no surprise, but my point is, where is this 
Nation's priorities?
    Now, you are not going to be able to answer that, but we 
have some people from DHS here. They might relay that message 
to some of their bosses, that there was some questioning about 
the Nation's priorities.
    Now, within DHS, you tell us that you didn't like the grant 
applications. I think Mrs. Maloney makes a pretty good point 
that not to identify the Brooklyn Bridge as anything more than 
a bridge was questionable, not to identify the Statue of 
Liberty as a national icon is questionable, and not to 
recognize the priority that Washington, DC, must have when we 
have millions of people here, 20 million visitors a year, the 
seat of the Nation's Capital, of the entire free world, and you 
make a 40 percent reduction in the funding?
    Now, maybe you don't like the application. But I worked in 
the executive branch for a few years. We thought--this was 
during the Nixon administration, and one of our roles was to 
sit down with the local government and work with them, because 
the objective is not to grade papers; it is to do what is in 
the best interests of the American people, in this case, to 
figure out how best to secure our Nation's Capital. There was 
$190 million additional needs identified, and the Department of 
Homeland Security decided to address 6.5 percent of those 
needs, from what I see, down from almost 10 percent.
    You recognize that D.C. is at the top of the terrorism 
target list. To put it at the bottom of funding, these are 
things that need some answers, and I don't think it is 
unreasonable for us to be asking these questions.
    Again, what we are going to be doing is shooting the 
messenger. It is the people that sent you here who make these 
top decisions in terms of allocating our Nation's resources who 
are the ones who ought to be on the hot seat. But, 
nevertheless, this hearing needs to be held. More importantly, 
we need to get some answers.
    Mr. Chairman, again, I appreciate your holding the hearing.
    [The prepared statement of Hon. James P. Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.015
    
    [GRAPHIC] [TIFF OMITTED] T0591.016
    
    [GRAPHIC] [TIFF OMITTED] T0591.017
    
    [GRAPHIC] [TIFF OMITTED] T0591.018
    
    Chairman Tom Davis. Thank you very much.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Thank you for holding the hearing today on a very important 
issue. As some of my colleagues said, this does raise the 
overall question of our national priorities. We hear a lot of 
rhetoric from the White House and the administration about 
Homeland Security. It is a top priority. Yet when you look at 
the resources devoted to it, you find out that, hey, look what 
happened here?
    One of the reasons we have seen cuts in Washington, DC, and 
New York is because we don't have the resources this year that 
we had last year. If it is the administration's position now 
that the threat to the homeland has reduced that much, it would 
be interesting to hear from them. Otherwise, it would be nice 
to have the resources match the rhetoric.
    We are often told that we shouldn't prepare for the last 
war, and that is absolutely true. You got to always be thinking 
about new possible threats. On the other hand, I don't think 
there is anybody with a shred of common sense that can tell you 
that, going forward, the Nation's Capital and New York City 
don't remain top targets of al Qaeda and any other group, 
terrorist group, seeking to do our Nation harm. Clearly, they 
remain at the top of that list.
    Now, many of us have been concerned for some time about the 
degree of attention the Department of Homeland Security has 
been paying to the Nation's Capital. We had a back and forth a 
little while ago about the downgrading of the position of the 
Office of the National Capital Region Coordinator within the 
Department of Homeland Security who used to report directly to 
the Secretary. The Secretary has now apparently determined that 
he will be buried within a couple of layers of bureaucracy. We 
haven't gotten any response to the complaints many of my 
colleagues and I wrote to the Secretary with respect to that 
downgrading. Now it appears that downgrading is not just with 
respect to the regional coordinating position, but with respect 
to the resources that are devoted to the National Capital area.
    Now, this is an important hearing because we are going to 
be able to find out a little bit more why these decisions were 
made, because there are conflicting comments in the media. Some 
media reports say that the Homeland Security evaluation that 
New York City and the Washington, DC, area were given lower 
amounts because they were inadequate, that they were not well 
thought out and substantial. Yet there are other comments from 
representatives, including some on the panel from the 
Department of Homeland Security, that said that is not the 
reason they were downgraded. So I think it is a mystery to many 
people why these areas received less money.
    I would just close by pointing out that the Washington, DC, 
area, as we all know, is a multi-jurisdictional area. You have 
two States, Virginia and Maryland. You have the Nation's 
Capital. Within the two States, you have lots of jurisdictions. 
Coordinating that area is a major challenge. To have the one 
source of money that really helps pull all those different 
jurisdictions together and working as one and pulling them in 
the same direction, to have that source of money cut sends I 
believe absolutely the wrong signal at the wrong time. There 
are lots of good ongoing efforts in the regions to try to bring 
everybody together. I think they can do even better, but they 
can't do even better with a lot less than they are getting now.
    So this is a great mystery to many of us, how this decision 
was reached. Thank you, Mr. Chairman, for holding this hearing. 
Hopefully, we will get some answers.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you, Mr. Chairman, for having 
this.
    Mr. Moran, I am glad you are here to make an argument.
    First, I represent Maryland's Second Congressional 
District, includes the Baltimore region, part of the National 
Capital area. Also in my district is the port of Baltimore, 
NSA, BWI Airport, Fort Meade, Aberdeen Proving Ground and the 
sector of Baltimore which is a Coast Guard shipyard.
    In 2006, the Department, as we know, that is why we are 
having this hearing today, the Department of Homeland Security 
cut National Capital Regional funding 40 percent from the 
previous year. They also cut $18 million in Homeland Security 
grants from the State of Maryland from the previous year.
    Now, it is of great concern to me that DHS would cut 
counter-terrorism money for New York City, the Washington 
region, which together have been 100 percent of al Qaeda's 
terrorist attacks on American soil. Each jurisdiction has been 
cut, based on my investigation, by, again, at least 40 percent.
    Now, it is also of great concern to me that DHS has shown 
by their actions that the National Capital Region is a low-risk 
city. That is preposterous. When you compare the State of 
Maryland, which I represent, with nearly 5.5 million people, 
the per capita spending for DHS dollars is $4.5 per person. 
That means each person in Maryland gets $4.5 that could be 
allocated.
    You look at Wyoming. Wyoming received nearly $16 per person 
in DHS funding per capita. Wyoming gets more than 15 times as 
many DHS dollars than they have people. $7.6 million and only 
493,000 people who live in Wyoming.
    I like Wyoming. The Grand Tetons is one of our most 
magnificent rural areas in the country. I have been there. I 
observed grizzly bears and other wild animals. Based on this 
new funding system, it seems that DHS is protecting the grizzly 
bears in Wyoming over the people who live and work around Fort 
Meade and NSA and other parts of this country. I choose people 
over bears.
    Now, I am willing to listen to DHS's argument, and they are 
on the hot seat, as they should be. But I feel very strongly 
that we need to focus on our high-priority targets. I am a 
Member of the House Select Intelligence Committee. We focus on 
terrorism and al Qaeda all the time. I am just very, very 
concerned of DHS's priorities as it exists here today.
    If DHS has a better understanding of where the risk is, why 
was the funding for such densely populated urban areas like 
Washington, DC, New York and Baltimore cut so much? The new DHS 
system which supposedly balances risk and effectiveness places 
more emphasis--and this is what really concerns me--places more 
emphasis on the quality of the writing of the grant proposal 
than the actual risk a community faces. I want to repeat that 
because that seems to be the argument that certain 
jurisdictions might not have written the grant proposal the way 
DHS wanted it.
    I agree that giving money to States without having a plan 
is putting the cart before the horse, and DHS should have been 
criticized for the amount of waste, of money that went to 
different jurisdictions, pork, for dog vests and everything 
else. That has to stop. I am sure that is why this system is 
coming here now. But giving Homeland Security dollars on the 
basis of the quality of how a proposal is written is trying to 
drive the cart without a horse.
    If the State plans are being analyzed, where is the 
congressional oversight? I question whether a group of peer 
review experts should be telling first responders what projects 
have value and which don't and determining how much money they 
should receive. Have these peer review experts ever managed a 
Federal grant or Federal emergency? I don't know, because I 
don't know who they are. They haven't been before the 
committee. There is an argument about being classified. I am on 
the committee that is classified. So there needs to be 
oversight with respect to that.
    This process is not acceptable, and I believe the new DHS 
system puts our most vulnerable cities at risk. I think the DHS 
has put the needs of a few over the needs of the most 
vulnerable. I will work with my colleagues to fix the DHS grant 
formula so it accurately protects America's most vulnerable 
assets, our families, our community and our Nation.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you.
    Mr. Mica.
    Mr. Mica. Thank you, Mr. Chairman. I really don't have a 
lengthy opening statement, which I am sure many will 
appreciate. But I am actually looking forward to hearing from 
some of these folks. I have never seen a goofier list of 
priorities for receiving Department of Homeland Security grants 
than the one most recently provided us.
    I just want to figure out how they figured out how to mess 
things up so badly, particularly addressing the needs of some 
of our most critical cities and regions, Washington and New 
York and others. I want to hear the explanations to the goofy 
decisions.
    Thank you. I yield back.
    Chairman Tom Davis. Thank you.
    Ms. Watson.
    Ms. Watson. Thank you so much, Mr. Chairman. This hearing 
is very important to our oversight responsibilities, and I 
would like to thank all the witnesses that are here today for 
coming.
    I believe homeland security manifested as guns, barriers 
and blind response protocol is a false sense of security. 
Homeland security should be about the health of the American 
people. It really is not about the land; it is about the 
people; the people's education and the proper expertise that 
can be brought to strategic management and preparedness.
    You see, these alerts go high every day. What do you do? 
The people have no clue. The Department of Homeland Security 
was born in America's moment of crisis. Unfortunately, as a 
result, it seems the Department's management itself is in a 
perpetual moment of crisis.
    We saw the most devastating results of this mismanagement 
during Hurricane Katrina last autumn. But the hidden disaster 
is the way that our local government and our first responders 
are blown about by the capricious winds of DHS's policy shifts. 
Now DHS has again changed the way it allocates grant money to 
the local governments that are expected to respond in a case of 
disaster.
    I am still concerned that we have not fixed the problems 
that have plagued the way we allocate these funds since the 
beginning. It seems to me that the endless debate over 
allocation formula is a product of the President's failure to 
provide the resources necessary to secure the homeland, the 
people.
    Rather than debate who is going to get the biggest piece of 
a shrinking pie, we need to base not just our formula but also 
our overall spending levels on the true threats and risks to 
America.
    So I want to thank you, Mr. Chairman. I look forward to 
hearing from the witnesses about how they believe we can 
improve DHS's grantmaking policies, specifically in the 
National Capital area.
    I yield back.
    Chairman Tom Davis. Thank you. I think that will conclude 
opening statements and we can get to our panel. Members will 
have 7 days to submit opening statements for the record.
    I recognize our very distinguished panel of witnesses.
    We have the Honorable George Foresman, the Undersecretary 
for Preparedness, Department of Homeland Security; there is Mr. 
Edward Reiskin, Deputy Mayor for Public Safety and Justice; Mr. 
Robert Crouch, the Assistant to the Governor of the 
Commonwealth of Virginia for Preparedness; Mr. Dennis Schrader, 
the Director of the Governor's Office of Homeland Security of 
the State of Maryland; and Mr. David Robertson, the executive 
director of the Metropolitan Washington Council of Governments.
    It is our policy to swear all witnesses in before they 
testify, if you would rise and raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Foresman, we will start with you 
and move on down the line. Thank you.

     STATEMENTS OF GEORGE W. FORESMAN, UNDERSECRETARY FOR 
   PREPAREDNESS, DEPARTMENT OF HOMELAND SECURITY; EDWARD D. 
REISKIN, DEPUTY MAYOR FOR PUBLIC SAFETY AND JUSTICE, GOVERNMENT 
 OF THE DISTRICT OF COLUMBIA; ROBERT P. CROUCH, JR., ASSISTANT 
TO THE GOVERNOR FOR THE COMMONWEALTH PREPAREDNESS, COMMONWEALTH 
OF VIRGINIA; DENNIS R. SCHRADER, DIRECTOR, GOVERNOR'S OFFICE OF 
 HOMELAND SECURITY, STATE OF MARYLAND; AND DAVID J. ROBERTSON, 
    EXECUTIVE DIRECTOR, METROPOLITAN WASHINGTON COUNCIL OF 
                          GOVERNMENTS

                STATEMENT OF GEORGE W. FORESMAN

    Mr. Foresman. Mr. Chairman, thank you.
    Ranking Member Waxman and members of the committee, thanks 
to each of you for the opportunity to appear today along with 
colleagues from the National Capital Region to discuss the 2006 
Homeland Security Grant Program and specifically the Urban Area 
Security Initiative.
    I would like to highlight several key issues for the 
committee today in advance of the very important discussions 
about reducing America's overall risk from terrorism. The 
discussion on funding should not be an issue of placing the 
safety and security of any one person, community or State in 
America ahead of another. Managing risk is a national 
responsibility. The process used by the Department this year 
reflects the desires of the administration, Congress and the 
American people to make our entire Nation safer and more 
secure. It is in that vein that I feel compelled to present to 
the committee some clear facts.
    First, the amount of funding available for the Urban Area 
Security Initiative program has been reduced by $125 million 
compared to 2005. This does in fact represent a reduction of 14 
percent. The State Homeland Security Grant Program has been 
reduced by $550 million compared to 2005, representing a 
reduction of approximately 50 percent.
    Second, the Department, at congressional direction, 
implemented an approach this year that includes both risk 
analysis and effectiveness scoring. It is an approach that is 
supported by the administration and reflects the evolution of 
our post-September 11th approach to managing the risk of 
terrorism.
    I would like to draw two excerpts from the House Homeland 
Security Appropriations Committee report for 2006: We are at a 
turning point in the methodology for administering the First 
Responder Grant Program. Historically, funds have been 
distributed based on minimum percentages and population.
    A little later, the report language reads: ODP, now known 
as the Office of Grants and Training in the Department, will 
begin a new methodology for administering the First Responder 
Grant Program. Funding will be targeted based on threat and 
risk while targeting gaps in preparedness.
    This guidance from the Congress has informed the 
development of the process that we used this year.
    Third, the risk to our Nation is better understood than 
even 1 year ago. National risk is an umbrella that encompasses 
community and State risks together. No single community or 
State constitutes the sum of America's risk. Our adversaries 
have publicly stated their desire to kill and injure our 
citizens, wreck our economy and destabilize public confidence. 
We know that there are key facilities across America that, if 
attacked, could cause grave harm to the people inside and in 
the immediate vicinity and cause potentially devastating ripple 
affects across the entire Nation, chemical and nuclear power 
plants, key transportation, telecommunications and energy hubs, 
as well as financial centers, just to name a few.
    In 2004, at the earliest stages of our national efforts, we 
had documented approximately 200 facilities nationwide. Last 
year, we had documented about 11,300. Today we have documented 
more than 260,000 nationwide. This documentation process is 
critical to understanding both the scope and diffuse nature of 
our national threat.
    In addition, the post-September 11th efforts to fuse the 
work of the intelligence and law enforcement communities at all 
levels of government is producing a more accurate picture of 
suspicious activity. This is activity that may point to an 
impending plot against Americans, our economy and our way of 
life anywhere in our country. This information also strengthens 
our analysis and underscores mode of attack of the past may not 
be the mode of attack of the future.
    The Department has adopted the lessons from the tragedy of 
September 11th. It is important to connect the dots, to 
understand our vulnerabilities, their consequences and the 
realities of potential threats all across the country. 
Together, these inform our risk analysis.
    The Department of Homeland Security's job is to protect an 
entire Nation. We are using all available information to guide 
us in doing just that. Just as we know that putting all police 
resources in a single neighborhood after a robbery or murder 
will not reduce the risk of crime in an entire community, we 
also know that reducing an entire Nation's risk cannot be 
accomplished by focusing resources in any one area alone.
    Fourth, and with what I just mentioned in mind, analyzing 
risk is neither absolute nor is it static. We have a much more 
accurate understanding of our entire Nation's risk. New York 
and the National Capital Region do not suddenly have less risk. 
Because of our better analysis, we know that the risk measures 
in some other urban areas are actually higher than previously 
assessed in relation to New York and the Washington region.
    In some cases, the share of national risk for these other 
communities actually doubled or tripled as a result of our 
incredible analysis this year. This means that additional 
resources had to be applied to these areas to help address the 
better understood risk as part of a truly national approach. 
Two-thirds of funding to the 46 urban areas was based on these 
risk measures.
    Let me be very clear: New York City and the Washington 
region continue to be at the top of our risk consideration. You 
will see a chart on the screen that shows the risk curve in the 
upper righthand corner and the funding curve in the lower 
lefthand corner. You can see that funding corresponds to risk. 
In fact, more than 45 percent of all funds go to just 5 of the 
46 urban areas, New York City, the National Capital Region, Los 
Angeles, Long Beach, Chicago and the San Francisco Bay area.
    It is also important to note that these 46 urban areas 
constitute approximate 85 percent of our national urban area 
risk. I should underscore that as our knowledge and information 
continue to evolve, relative risk rankings could change again 
in the future.
    Fifth, we assessed the effectiveness of urban area 
applications this year relative to each other in support of 
meeting national priorities. These assessments also included 
review of how investments matched their respective State 
strategies and potential for continuing beyond the flow of 
Federal dollars.
    The effectiveness score is not in any way a measure of how 
well urban areas are implementing programs, managing their 
resources, succeeding in keeping their citizens safe or how 
well they write their grant applications. It is simply a 
mechanism for promoting a national unified approach to the 
national threat of terrorism by encouraging efforts that meet 
program directions set forth by Congress and the 
administration.
    Effectiveness accounted for one-third of the allocation 
decisions, and it is important to note that the maximum 
increase or reduction of funds based on these measures would 
have been at most 7 percent for any of the urban areas. The 
vast majority fell into the median, meaning there was very 
little change.
    Finally, we continue to work on improving communication. 
The Department is responsible for addressing a national threat, 
and that means by working closely with many stakeholders, 
including our partners at the State and local level. Before 
this position, I spent nearly a quarter of a century in local 
and State public safety activities, and I clearly understand 
that funding decisions can send unintended messages.
    The message here should be very clear: Members of the 
committee, managing America's risk requires a national approach 
that applies Federal resources wisely to supplement the work of 
State and local governments. The Secretary and I continue to 
balance the need for maximum transparency in the funding 
processes with the need to avoid publicly giving our enemies a 
roadmap to our national vulnerabilities.
    We will continue to work closely with our partners at the 
State and local level here in the National Capital Region and 
with the Congress to ensure that we protect the entire Nation 
and that we provide clearer understanding of the progress that 
we are making on reducing America's risk from terrorism on 
numerous fronts.
    Mr. Chairman, members of the committee, thank you for your 
attention and I look forward to your questions.
    [The prepared statement of Mr. Forseman follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.025
    
    [GRAPHIC] [TIFF OMITTED] T0591.026
    
    [GRAPHIC] [TIFF OMITTED] T0591.027
    
    [GRAPHIC] [TIFF OMITTED] T0591.028
    
    [GRAPHIC] [TIFF OMITTED] T0591.029
    
    [GRAPHIC] [TIFF OMITTED] T0591.030
    
    [GRAPHIC] [TIFF OMITTED] T0591.031
    
    [GRAPHIC] [TIFF OMITTED] T0591.032
    
    [GRAPHIC] [TIFF OMITTED] T0591.033
    
    [GRAPHIC] [TIFF OMITTED] T0591.034
    
    [GRAPHIC] [TIFF OMITTED] T0591.035
    
    [GRAPHIC] [TIFF OMITTED] T0591.036
    
    [GRAPHIC] [TIFF OMITTED] T0591.037
    
    [GRAPHIC] [TIFF OMITTED] T0591.038
    
    [GRAPHIC] [TIFF OMITTED] T0591.039
    
    [GRAPHIC] [TIFF OMITTED] T0591.040
    
    Chairman Tom Davis. Thank you, Mr. Foresman.
    Mr. Reiskin, thanks for being with us.

                 STATEMENT OF EDWARD D. REISKIN

    Mr. Reiskin. Good morning, Mr. Chairman, Congresswoman 
Norton, members of the delegation and committee.
    My name is Ed Reiskin, I am the Deputy Mayor for Public 
Safety and Justice for the District of Columbia, and I have the 
day-to-day responsibility for Homeland Security in the 
District. I am pleased to have this opportunity to be here 
today to talk about this very important issue for the District 
and the region.
    Mr. Crouch from Virginia, Mr. Schrader from Maryland and I 
work together collectively and collaboratively on a day-to-day 
basis to improve the safety and security of the region, and 
that is a responsibility that we take very seriously, and it is 
in that spirit that we are jointly presenting our testimony 
today.
    I will discuss our application, the risk and effectiveness 
assessment of it and the impacts to the District. My colleagues 
will discuss impacts to the region as well as impacts to pair 
to their respective States. If you are following in the written 
testimony, the State impacts are in the last pages of the 
testimony.
    With regard to the application sample, some of the 
documents which are in front of me, significant effort by 
experienced practitioners from fire chiefs to health directors 
to communication experts, volunteer managers, hospital 
executives, many of whom I am pleased to see are in the room 
today, and many other stakeholders work toward the regional 
security of the homeland and worked together jointly to develop 
the fiscal year 2006 funding applications.
    With our understanding of the fiscal climate and the 
Department's shift to a more risk-based approach, we were 
expecting an award somewhere in the area of $100 million to 
$120 million. To be conservative, we developed an application 
for $188 million, which was a prioritization of over $250 
million of identified need that represented an amount we felt 
comfortable we would be able to execute. The breakdown of the 
areas that make up that $188 million are in your written 
testimony.
    As many of you have mentioned, the Nation's funding for the 
Urban Area Security Initiative was reduced by 50 percent. We 
were reduced by 40 percent, yielding a $46.5 million award, 
which was, needless to say, considerably lower than we had 
expected.
    With regard to risk and effectiveness, as many of you have 
said, we know we are a high-risk area. We understand through a 
press release that DHS found our region to be in the 97th 
percentile in terms of risk, and with risk as two-thirds of the 
equation for determining the allotments, it is hard for us to 
understand the disproportionate reduction that we seem to have 
received.
    Absent any specific feedback from the Department, which we 
understand will be forthcoming, we can't speak to the 
effectiveness analysis of our proposal, although it was rated 
at or above average in each of their rating categories for each 
of the investment areas.
    What we do know is that some of the most experienced 
responders and planners, many of which are in the room, people 
who did respond to September 11th, who have responded to 
anthrax, were the ones developing the content for this 
application. So we don't understand how peers from across the 
country could have somehow found this application to be 
lacking.
    We have built significant capability in the region over the 
last 5 years that we are proud of and that should give comfort 
to those who live here, work here and visit here. That 
capability will not generally diminish as a result of this or 
any other award. But preparedness is a dynamic and complex 
process, and we have significant unmet need that remains, and 
we will be unable to meet all of it in this grant cycle. We 
can't speak to the levels of need or risk elsewhere in this 
country, but we do know that ours is high.
    With respect to the District of Columbia, as many of you 
mentioned, we are the seat the Federal Government, home of the 
Capitol, the White House, the Supreme Court, the Department of 
Homeland Security and its national operations center, the FBI 
headquarters, the Washington Monument, 20 million visitors and 
countless other national icons and critical Federal functions. 
Yet the Department of Homeland Security determined that we face 
less risk than 75 percent of the Nation's States and 
territories.
    The region was found to be in the top 25 percent of risk, 
but the city that serves at its core was in the bottom 25 
percent. State Homeland Security grant funding was cut 50 
percent nationally compared to last year. The District of 
Columbia's share was cut more than 53 percent. Only American 
Samoa, the Northern Marianas Islands, the Virgin Islands and 
Guam received less State Homeland Security grant funding than 
the District of Columbia.
    Between State and law enforcement grant programs, from an 
identified need of over $37 million, we submitted an 
application for $21.5 million and were awarded $7.4 million. 
Our application included the following, which directly support 
national priority capabilities: $3.7 million for planning, 
training and exercising in areas such as national incident 
management system, hazardous materials response, continuity of 
operations planning; $1.6 million for enhanced preparedness, 
focusing especially on special needs populations, schools and 
businesses; funds for mass care, $1 million for critical 
infrastructure protection, there is no question we have a 
significant amount of critical infrastructure here; $3.4 
million for intelligence fusion, following the guidelines of 
the Federal Government, both Homeland Security and justice; 
$2.4 million to continue our work in interoperable 
communications, including the dedicated wireless public safety 
network that is currently used to support events by both 
District and Federal agency users; $1.5 million for response to 
chemical, biological, radiological, nuclear weapons of mass 
destruction attacks that the District may face; $5 million for 
law enforcement response to raise our capabilities for our 
harbor patrol, our emergency response teams, our air support 
unit and others to Tier I as required by Homeland Security 
Presidential Directive 8.
    There is obviously a lot more in the applications, and the 
bottom line is we won't be able to complete all of those things 
as we proposed.
    I do want to close by saying we fully support a risk-based 
approach, and we support and acknowledge the Department of 
Homeland Security's efforts to make this process more objective 
and more transparent, which I do believe it has been. However, 
we have to question the outcomes, which don't seem to square 
with professional or common sense.
    We are confident that the lessons learned from this year's 
process will ensure that next year's is better. With that, I 
will turn to my colleague from Virginia.
    [The prepared statement of Mr. Reiskin follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.041
    
    [GRAPHIC] [TIFF OMITTED] T0591.042
    
    [GRAPHIC] [TIFF OMITTED] T0591.043
    
    [GRAPHIC] [TIFF OMITTED] T0591.044
    
    [GRAPHIC] [TIFF OMITTED] T0591.045
    
    [GRAPHIC] [TIFF OMITTED] T0591.046
    
    [GRAPHIC] [TIFF OMITTED] T0591.047
    
    [GRAPHIC] [TIFF OMITTED] T0591.048
    
    [GRAPHIC] [TIFF OMITTED] T0591.049
    
    [GRAPHIC] [TIFF OMITTED] T0591.050
    
    [GRAPHIC] [TIFF OMITTED] T0591.051
    
    [GRAPHIC] [TIFF OMITTED] T0591.052
    
    Chairman Tom Davis. Thank you very much.
    Mr. Crouch.

               STATEMENT OF ROBERT P. CROUCH, JR.

    Mr. Crouch. Thank you, Mr. Chairman, members of the 
committee. I do appreciate this opportunity to discuss this 
very critical issue, critical to the States of Virginia and 
Maryland and critical to the District of Columbia. Mr. Reiskin 
pointed out some of the investments that were included in our 
package and I think it might be useful to discuss some of the 
other proposals that are also included which we think 
demonstrate the forward thinking, seriousness and consideration 
made by the National Capital Region. We certainly know among al 
Qaeda's as targets in the past have been transit systems. We 
know that from the experience of London. We know that from the 
experience of Madrid.
    Among our proposals is a Washington Metropolitan Area 
Transit Authority Alternative Operation Control Center. 
Currently, 30 percent of the region's commuters rely on Metro 
rail service, and almost half of the peak period riders are 
Federal employees. Recent attacks in London and Madrid have 
shown the transit systems are a favorite target of terrorists.
    WMATA's existing Operation Control Center directs rail and 
bus operations, emergency repair actions, radio communications, 
coordinates communications with the region's emergency first 
responders, receives chemical sensor program data. It's an 
origination point for public announcements and needs to be 
extremely facile with the ability to quickly respond to a 
variety of incidents.
    WMATA's Operation Control Center represents a single point 
of vulnerability for operating the entire rail system. If the 
building that currently houses the OCC is destroyed or has to 
be evacuated, it would be essentially impossible to maintain 
rail service within the acceptable degree of reliability.
    Addressing this single point failure in WMATA's operating 
system in a timely fashion would serve to mitigate the negative 
impacts and enhance the response and recovery capabilities of 
the National Capital Region resulting from a terrorist attack 
directed toward transit or other high threat targets in the 
region.
    Similarly, among our proposals is the Metro Subway Security 
Strategic Initiative. Recently the National Capital Region Fire 
Chiefs Committee created the Subway Tunnel Working group to 
identify gaps in their response to an incident in the WMATA 
Metro system.
    Our current initiative is to address identified gaps in the 
region's fire services' abilities to respond effectively to an 
incident involving a WMATA tunnel system. This initiative 
includes implementing hazardous materials detection, mitigation 
and decontamination training to ensure proper hazardous 
materials techniques within the Metro system.
    This proposed project would also supply the first 
responders with longer-duration breathing apparatus so 
firefighters can rely on longer search and rescue missions 
within the tunnels in the case of an attack.
    Clearly one of the lessons of Hurricanes Katrina and Rita 
was the need to give additional attention to special needs 
populations. Included among our proposals for the National 
Capital Region is a project to increase the capability of 
nursing homes, group homes and providers of home health care to 
service those people with disabilities or other special needs, 
including economic special needs. We recognize that these 
organizations in the National Capital Region are not 
sufficiently prepared to shelter in place the people they serve 
or to evacuate them to a place of safety and shelter.
    Our current initiative would create a representative 
consortium of disability advocacy groups and service providers 
with national outreach and local National Capital Region focus 
to prepare organizations that serve people with disabilities in 
the National Capital Region to shelter in place or evacuate 
those they serve and conduct exercises to shelter in place or 
evacuate to a disaster shelter.
    These are just three examples of the proposals in our 
package. We do think they demonstrate effectiveness. They 
demonstrate an attention to critical needs, unmet needs that 
require the attention of the National Capital Region and the 
Nation.
    We are interested, as we know you are, in the process that 
was engaged in, in coming to the conclusions that ranked the 
National Capital Region as it has been ranked. Our colleagues, 
and we do regard them as colleagues, and partners at the 
Department of Homeland Security have assured us that we will 
have an opportunity in the very near future to have that kind 
of in-depth discussion.
    As Deputy Mayor Reiskin indicated earlier, we are 
interested in the process, both in learning why our proposals 
were not ranked as highly as they were but also learning that 
in part so we can address those issues in coming applications. 
We want to get it right, and if we don't understand why we 
didn't seem to get it right this year, we want to learn that 
lesson.
    Nevertheless, we do continue to have concerns about that 
process and whether the formula that is used is really the 
appropriate formula. In the Commonwealth of Virginia, we 
experienced a similar cut this year, dropping from over $36 
million in funds last year to $16.8 for this year.
    Again, the Commonwealth was ranked in the top 50 percent in 
risk, and we remain baffled why our proposals that included, 
for example, funding for our intelligence gathering and 
analysis fusion center, which is considered state-of-the-art 
among the Nation, funding for our interoperability programs. 
Virginia was the first State in the Nation to create a State 
interoperability coordinator, the first State to create a 
statewide interoperability strategic plan, which is being used 
today by the Department of Homeland Security as a model for 
other States.
    We want to complete our interoperability throughout the 
Commonwealth, and yet these are proposals that did not merit a 
higher ranking and higher funding by the Department.
    We continue to have concerns that the Hampton Roads region 
not only does not get Urban Areas Security Initiative funding 
but doesn't even qualify for consideration based on the 
formula, with all of its maritime and military traffic.
    So we do continue to have those concerns. We look forward 
to that discussion with the Department and learning more about 
the process and contributing to its improvement in the future. 
Thank you very much.
    Chairman Tom Davis. Thank you, Mr. Crouch.
    Mr. Schrader.

                STATEMENT OF DENNIS R. SCHRADER

    Mr. Schrader. Mr. Chairman, thank you.
    It is a pleasure to be here to give you our perspective in 
representing Governor Ehrlich's, his homeland security advisor, 
and appearing with my colleagues Bob Crouch and Ed Reiskin from 
the District and our local jurisdiction representatives who are 
here today.
    Maryland is one of the three major components of the NCR, 
and one of the things we observed according to the Homeland 
Security application process is Maryland was ranged in the top 
50 percent for both risk and effectiveness. One of the things 
that we are wondering as we sift through this is, it is 
difficult to understand how Maryland and the NCR grant funds 
were cut so drastically.
    Our thinking is that we have to work on improving the 
process to ensure risk is properly calculated to realize a 
commonsense risk-based process, particularly since it's two-
thirds of the application.
    Federal Homeland Security distribution procedures changed 
this past year, and we support that. But the application seems 
to have gone into a black box of literally thousands of 
calculations and, in the end, fell short for Maryland and the 
NCR.
    It appears that a laudable big picture goal which made a 
lot of sense in the front end of basing funding on risk instead 
got mired in complicated formulas, resulting in applications 
that don't match what we intuitively know to be high-risk 
areas.
    The bottom line is more capabilities mean less risk. What 
we are really focused on is lowering risk, and by not building 
the capabilities, it slows our ability to reduce that risk.
    Maryland, Virginia and the District jointly develop our 
security capabilities. We share information back and forth 
because it is a coordinated effort. We have three major 
airports, subways, ports, landmarks and, of course, the 
Nation's Capital.
    Just to add on to what my colleague, Mr. Crouch, mentioned 
earlier in some of the projects that are on our list but will 
have to be scrutinized even more tightly than we already have, 
and we have done some pretty tight scrutiny; we spent an awful 
lot of time together, probably 20, 25 percent of my time with 
these folks in the National Capital Region because of the 
importance that the Governor places on this region.
    Currently, all the bomb squads in the National Capital 
Region have a high level of interoperability. They participate 
in information exchange, do joint training and mutual aid, but 
they are not equipped up to the level that FEMA would expect 
for their highest level of standard, and we have an $8 million 
project which would address that issue in the National Capital 
Region.
    There is an awful lot of pressure on our local 
jurisdictions. We partner with the local jurisdictions in the 
Capital Region, and they bear a lot of the workload in terms of 
helping us with the bottoms-up process of understanding what 
direction we need to go, and we need to make sure they have the 
planning resources so that we can coordinate our efforts 
because it is in effect coordinating the States and the 
District and the local jurisdictions in a very complicated 
coordination effort.
    We have a program to continue to build our capabilities 
around evacuation planning, mass care and sheltering, animal 
shelters, regional coordination response plans, continuity of 
government plans, and we have $5 million projected for that.
    We were disappointed in the State because primarily the 
three States--two States and the District--have to be strong to 
work together collaboratively. As I said earlier, we had 
expected somewhere in the neighborhood of $35 to $40 billion 
because we have a Central Maryland urban area as well as our 
law enforcement and State grant. We ended up with $24 million 
of which of course we are very grateful for, but it was a bit 
of a surprise, and we had put in an application for about $120, 
$69 for the State and $51 for the central Maryland urban area.
    These are for key things like information sharing and 
intelligence. We have one of the Nation's first fusion centers 
that has been around since November 2003. Many of my colleagues 
from around the country have come to see our center and model 
it. Critical infrastructure protection, interoperability are 
just a couple of other major things that we need to invest in.
    The bottom line is, at the State level, we have an open and 
transparent process just like we have here in the National 
Capital Region. We have the local jurisdictions help us to find 
the priorities, and we sift through that to--basically, the 
State has strategic objectives that we are focused on, and then 
we would hope the Department of Homeland Security would review 
those priorities and fund it as appropriate.
    The bottom line is, we are looking forward to the July 
review session. We have reached out to DHS to start asking 
questions about these risk calculations. We do support this 
process, but we need to understand it better because the 
outcome in some cases just didn't make a lot of sense.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you, very much.
    Mr. Robertson.

                STATEMENT OF DAVID J. ROBERTSON

    Mr. Robertson. Thank you, Mr. Chairman and members of the 
committee. I'm Dave Robertson, executive director of the 
Metropolitan Washington Council of Governments, and I have the 
privilege to represent the interests of 20 local governments in 
the National Capital Region that have vested countless hours 
and energy in addressing homeland security preparedness and 
response since September 11th.
    Just yesterday, the Council of Governments' Board of 
Directors met to examine this issue and had a very thoughtful 
and helpful discussion. They, like this committee, have 
questions and concerns, and I believe they are seeking many of 
the same responses that the committee is seeking, which is, we 
need to know how to sustain what we have started and how it can 
be made more predictable and transparent for all those 
concerned.
    I am here today, as I said, to represent the interests of 
our local governments but would comment to the committee that 
most response is going to be local. The men and women that are 
our first responders, our network of first responders in this 
region, work for local governments by and large, and they will 
continue to do what is necessary to protect and strengthen this 
region regardless of UASI funds.
    We know we need these funds. We have identified a range of 
priorities, but in the event of an emergency, local officials 
will respond as they are required, no matter what the 
circumstances.
    We will be looking to our State partners, our region's 
mutual aid agreements and certainly our Federal partners to 
support that effort. I can't speak too much to the peer review 
panel that worked on these applications, but I can speak to the 
peer team that helped reduce the region's proposals.
    Tony Griffin, who is the county executive in Fairfax 
County, and his colleagues from around the region spent dozens 
of hours sifting through proposals and trying to make sure that 
they meet the region's top priorities and needs.
    Local governments are supported by, among the Nation's best 
first responder teams: police officials, fire officials, 
transportation directors, health officials and others that 
worked hundreds of hours to develop these recommendations to 
measure them against standards and guidelines provided by the 
Federal Government. We know very strongly and very confidently 
that the work that has been advanced is of great need.
    Speaking to the issue of predictability and sustainability, 
we are concerned that many of the projects that have been 
advanced may be jeopardized by the reduced funding. Two quick 
examples: Much of the equipment that has been purchased in the 
early rounds of UASI funding does sometimes have a shelf life 
or needs to be maintained. We will need ongoing funds to make 
sure that equipment is at the ready at all times.
    Certainly, the issue of citizen communication. We can't do 
a one-time citizen communication campaign because this is a 
tremendously transient region. We need to reach out 
aggressively to citizens and the millions of visitors on an 
ongoing basis.
    We also believe the impact on these UASI cuts will be 
serious for our region. Simply stated, this region cannot 
achieve the level of sustainability and predictability and 
confidence that we want to have in our region's preparedness 
with the funds that are out there. We have a tremendous unmet 
need that will be unmet, will not be recognized if we do not 
receive additional funds in our region.
    Finally, the issue of the insufficiency perhaps of the 
application. Like a lot of the folks that have spoken earlier, 
the Council of Governments does support and our member 
governments do support the issue of risk-based assessment. We 
need to understand better how that is defined. We have worked 
very hard to address our proposals regionally and through the 
37 capabilities that the Department of Homeland Security has 
identified. If there are other guidelines or additional 
information that will be coming forward in the next couple 
weeks and month, we look forward to working with State and 
local partners to pinpoint exactly how we can do better.
    The Council of Governments was one of the first 
organizations to reach out to the Federal Government, State 
partners and locals immediately after September 11th to see how 
we could strengthen preparedness and response. We are proud of 
our work to date. We know our work is not completed; this is a 
long-term commitment of our Nation and region. And we look 
forward to working with Members of Congress to strength our 
preparedness.
    [The prepared statement of Mr. Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T0591.053
    
    [GRAPHIC] [TIFF OMITTED] T0591.054
    
    [GRAPHIC] [TIFF OMITTED] T0591.055
    
    [GRAPHIC] [TIFF OMITTED] T0591.056
    
    [GRAPHIC] [TIFF OMITTED] T0591.057
    
    Chairman Tom Davis. I want to thank all of you for your 
testimony.
    Let me start the questioning, Mr. Foresman, with you. DHS 
rated the National Capital Region in the top 25 percent for 
risk but, as has already been stated, the District of Columbia 
was rated in the bottom 25 percent. Considering that the 
District has already been a terrorist target, it houses the 
Federal Government, the White House, the Nation's Capital, the 
Capitol building, Supreme Court, why was the risk rating for 
D.C. in the bottom 25 percent?
    Mr. Foresman. Mr. Chairman, thank you for the question. 
This actually goes to the importance of us making sure that we 
are very clear communicating to our State and local partners. 
You are actually referring to two separate grant programs and 
the analysis contained therein.
    In terms of the rating for the urban area, D.C., which is 
based predominantly on the risk structure, the District of 
Columbia and the National Capital Region was rated in the 97th 
percentile.
    D.C. also is unique as a city; it has both the State status 
and city status, and so it is eligible to participate in the 
State Homeland Security Grant Program. So that program has a 
different funding formula that is based, in part, based on a 
floor amount, population-based floor amount.
    So, in essence, D.C., from a ranking standpoint, is 
competing against 50 States from a population base before we 
even get out on the door on any of the risk discussions. So it 
is an artificiality of the fact that D.C. is lumped into what 
is a State-directed program with a population-based funding 
formula.
    Chairman Tom Davis. So the risk is there. I mean, a major 
criteria of risk under the State funding formula is population.
    Mr. Foresman. A major criteria, that is correct. There is 
also a floor funding for the State program. There is a floor 
funding before you can get into the risk discussion.
    Chairman Tom Davis. So you really think under a State 
formula that Montana is at higher risk than D.C.?
    Mr. Foresman. Congressman, there are all sorts of 
intricacies.
    Chairman Tom Davis. I just asked you a question.
    Mr. Foresman. Yes, sir. My answer is, we do not measure the 
risk of one community against the other and place the 
importance higher--the higher of one community against another.
    Chairman Tom Davis. Am I right, under the State program, 
you have two criteria, and one is risk, and on the risk side, I 
can understand looking at the grants, I'm not going to get, at 
least in this question, how good the city's grant was, but on 
risk analysis alone, doesn't it seem on risk analysis alone 
that the District of Columbia is a likelier target and at 
higher risk than the State of Montana, or North Dakota, where 
I'm from, if a terrorist can find North Dakota?
    Mr. Foresman. I understand. The point is a valid point. If 
it was purely risk, D.C. would have scored higher. But there is 
a population-based factor on the front end of it, that amount, 
for a large portion.
    Chairman Tom Davis. You call it risk analysis. I mean, what 
it says on the grant, it says risk; it doesn't say risk and 
population. There is risk, and there is effectiveness.
    Mr. Foresman. Mr. Chairman, I go back to what I said 
earlier in terms of the products we provided to the 
communities. We should have been clearer in our communication, 
and that does not effectively articulate the nature of the 
grant program and the allocation process.
    Chairman Tom Davis. So, at a minimum, you would agree with 
me that where it says risk, it shouldn't say risk because, 
otherwise, if you're saying risk and population is a factor, 
that's one thing, but you have ranked the District under the 
State categories as a lower risk than North Dakota.
    Mr. Foresman. Mr. Chairman, we could have provided a better 
and clearer descriptive response to the community.
    Chairman Tom Davis. Risk is really not a very good term 
there.
    Mr. Foresman. Mr. Chairman, this goes to the broader issue. 
Throughout this whole debate, a number of people have been 
confusing threat and risk in the same discussion, and risk 
analysis is not risk management. Threat is not risk. What is 
important for us----
    Chairman Tom Davis. What is risk?
    Mr. Foresman. Risk is the combination of threat, 
vulnerability and consequences. It is the threat, the intention 
of the adversary, the likely intention of the adversary to 
commit an act, the consequences, what's the likely outcome, and 
the vulnerability is the relative measure.
    Chairman Tom Davis. Under that criteria--I say that's a 
fair definition of risk. Let's agree that's fair. The city's 
population is concentrated, so one incident there is going to 
hit a lot more people than some of these western States where 
people are all over the place. It's a much more likely target.
    How in the world is, a risk or a threat in Montana, North 
Dakota or South Dakota higher than the District? I just need to 
understand that. They have a few more people there, but in 
terms of any kind of risk analysis, I don't think that passes 
the laugh test.
    Mr. Foresman. Congressman, this comes down to the fact that 
D.C. falls into two categories. It falls into a State category 
in some of these grant programs. It falls into an urban areas 
category in some of these grant programs. Deputy Mayor Reiskin 
and I have talked about this over the course of the last 
several years, and it creates a little bit of an artificial 
challenge.
    Chairman Tom Davis. I understand that DHS made 
adjustments--how much was in the State versus how much was in 
the urban category in terms of the amounts that DHS was 
throwing in? You have two different grant categories; how much 
went to the urban, and how much went to the State?
    Mr. Foresman. In terms of total dollars?
    Chairman Tom Davis. Yes. Or percentage wise.
    Mr. Foresman. The urban area was about a little over $700 
million and the State program was about, I believe, $500 
million.
    Chairman Tom Davis. All right. I understand that DHS did 
make adjustments to the risk factor assigned to the National 
Capital Region and New York City, based on a DHS briefing of 
our staff. Is that correct? That after the adjustments were 
made under the formulas, it looked like New York City and the 
District were lower, and you made what we used to call Kentucky 
windage adjustments.
    Mr. Foresman. This goes back to the discussion on common 
sense. Because we understand that we are responsible, and 
Congress's direction is to protect the Nation's risk. When we 
take a limited pot of money and we have to apply that against 
an entire risk of a Nation, we wanted to ensure that we did not 
reduce the National Capital Region funding and that of New York 
City below the average of what they received in past years 
because, frankly, this is the first year that we really 
quantitatively had a good understanding of risk outside of the 
National Capital Region in Washington, and that changed how we 
had to allocate the money accordingly.
    Chairman Tom Davis. Let's just take a look at the city side 
where you say the city is treated fairly here; that is the 
thesis here, isn't it? That the National Capital Region under 
the urban formula is going to get treated fairly? Even under 
that, as I understand it, Washington, DC, wasn't first, wasn't 
second, wasn't third, wasn't fourth. I was ranked below New 
Jersey; it was below the Bay area; it was below Los Angeles, 
and so on. And in fact, you included additional urban areas 
like Ohmaha that ate up money that could have come here.
    Mr. Foresman. Let me use an example without specific 
jurisdictions. There's a large metropolitan area that has 
roughly the same number of assets in terms of critical 
infrastructure as the National Capital Region, and it has a 
population that is roughly the same.
    The National Capital Region population, from a density 
standpoint, is spread over 3,000 miles, and in this major 
metropolitan city, it's spread over 230 square miles. So the 
net effect of an event in that particular community would have 
been potentially far more grave in terms of an immediate impact 
on a large concentrated population. This goes back to the whole 
discussion about New York City with its high population 
density.
    In that particular case, as we ran the numbers, when you 
looked at the risk ranking, it raised that city above the 
National Capital Region. But there's an intrinsic value of the 
Nation's Capital psychologically to the American value system, 
and that is the key reason and one of the key reasons that we 
put, as you say, the Kentucky windage to it, because risk 
management, risk analysis, it is not absolute. It only seeks to 
guide and inform our decisionmaking process and not control or 
dictate it. So we were trying to----
    Chairman Tom Davis. I appreciate your explanation, but I am 
going to yield to Ms. Norton in a second.
    I just tell you, from my perspective, you are looking at 
the Nation's Capital, which has been hit once, had the anthrax 
attack on top of that. We are still I think on everybody's--
close to the top of everybody's--hit list for any terrorist 
group that wants to make a statement.
    Terrorists are hitting London and Madrid. They are hitting 
capitals. They're not likely to hit Bull Frog Corner, WV.
    The reality is, as you take a look at urban areas and our 
density and everything else, I think your bean counters are 
just counting the wrong beans. I mean, I just think that this 
is too formula driven. I do not think that Congress makes the 
right decisions when we start allocating money and earmarks; 
it's not done on an equitable basis. That is why in this 
particular area, when it came to allocating funds for Homeland 
Security, we tried to give it to the administration because we 
thought they would be fairer, that they would take a look at 
what was good for the country as a whole, take a look at the 
threats and try to take the politics out of it. But what you 
have replaced with the politics is some bean-counting formula 
that doesn't pass the laugh test.
    You have, under your procedures, Montana, North Dakota, and 
South Dakota ranking ahead of Washington, DC, and under the 
regional analysis now, the city is not even second--now they 
are fifth--and that is applying, as we say, some subjective 
factors. But more importantly, you are including other urban 
areas that could have been covered under State grants that 
frankly don't look like they are threatened at all.
    What I'm concerned about is, should an incident, God 
forbid, happen--and we hope it doesn't--if it happens in Omaha, 
I think you're covered. I think you can say, we took care of 
them. But should something happen in New York or Washington, I 
think you are going to hear a huge outcry that we didn't give 
the appropriate attention. And the problem is, in these areas, 
they've been hit before; they've been hit more than once. That 
is the likelihood, and that's our concern.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Picking up on your questions, by the way, I certainly hope 
al Qaeda doesn't notice these rankings and the shift. They're 
informed more than Members of Congress.
    The chairman asked questions about the District. I'm 
curious, did you, in calculating risk for the District of 
Columbia in particular, take account of the fact that the 
District's daytime population is two or three times its census 
population?
    Mr. Foresman. Congresswoman, we do take in the computing 
population in the day and night population, and again, it 
depends on which of the programs.
    Ms. Norton. I'm talking about the area grant.
    Mr. Foresman. The urban area, yes, ma'am.
    Ms. Norton. So then, of course, we're talking about between 
15 and 20 million people a year who come; we're talking about a 
population that is not 600,000 but three times that. That's the 
population figure you used?
    Mr. Foresman. Congresswoman, I don't have the exact figures 
in front of me, but when I was serving in Virginia, whatever 
the current population of the National Capital Region is, with 
some slight increase for tourist population, is going to be the 
number that you see used, and I don't whether it's 4 million or 
5 million.
    Ms. Norton. I was asking you about the District of 
Columbia.
    Mr. Foresman. But the District of Columbia, Congresswoman, 
this is a very important distinction because the District of 
Columbia under the Urban Area Security Initiative program is 
part of the National Capital Region, and it looks at the 
combined total of all of the jurisdictions.
    Ms. Norton. If you look at the District of Columbia grant 
itself, did the District of Columbia grant take into account 
that what you're protecting is the daytime population, in 
effect?
    Mr. Foresman. Congresswoman, I don't know specifically on 
the State Homeland Security grant program, but I will find out 
which of the two numbers was used in the formula and give you a 
written answer.
    Ms. Norton. Very much appreciate that.
    Mr. Foresman, I know you would always, when grants are 
being made, expect some disagreement. I believe there would 
have been less disagreement or certainly less outrage if there 
had perhaps been cuts but they had been more modest.
    The impression created is that we got cut Homeland 
Security; who got the money, let's cut them. So without some 
explanation, it looks like you said, where's the money, and the 
money is in New York and the National Capital Region.
    This is my question. I have not heard you indicating in 
your formula what I will call, for lack of a better term, the 
price of postponement. In a real sense, if we know what we all 
know about the region, what al Qaeda and the terrorists know 
about this region, my question is: Isn't there some reason to 
make haste in places which are particularly at risk to get it 
done, as it were, to get its most vulnerable parts staunch down 
as opposed to looking at, of course, the various 
vulnerabilities across the country? Some have not been as 
adequately funded as you would like.
    But if you factor in what a single incident would mean here 
because we hadn't gotten to it as opposed to making sure that 
you take care of what is vulnerable in other regions, isn't 
there a value that the Department would put on getting as much 
of it done as rapidly as possible in this region and perhaps in 
New York, the other target that everyone is aware of?
    Mr. Foresman. Congresswoman, let me address it this way; 
that is a large part of why you see a major change. If you look 
at the five high urban areas: Los Angeles/Long Beach region, 
Chicago, the Newark region, San Francisco, the combined 
increase because of the understanding of the risk score in 
those communities, very densely populated areas with very 
critical infrastructure, that the change in allocation based on 
the risk scoring alone was $38 million.
    So part of what I offer to you, Congresswoman, is while 
everybody talks about Omaha or Louisville, they represent a 
very low dollar amount in the context of how these dollars were 
adjusted. A large amount of dollars went to these high 
metropolitan areas, recognizing that Chicago, for instance, is 
a major financial and transportation center, a major 
manufacturing center.
    So our concern is about making sure that we bring percent 
readiness up, and that we don't have any weak links or 
Achilles' heels, particularly in those urban areas.
    Ms. Norton. I looked at the other cities, New York, LA, 
Chicago. I don't understand Florida. You will have to make me 
understand that one. Then we get to D.C. I said, well, 
population, I can understand that.
    I have to tell you that with all of its population in LA 
spread out the way it is, they are now only making a downtown 
in LA, one only wonders if MO of al Qaeda is simply to look for 
population or whether it's not to look for concentration of 
icons and population.
    Why New York in the first place? Why was New York hit 
twice? Why was the same building hit twice?
    Mr. Foresman. Congresswoman, that goes to a key point. One 
of the great criticisms after September 11th was no one thought 
about a plane being flown into a building. We have heard bin 
Laden say on numerous occasions since September 11th he wants 
to hurt America physically, psychologically and, most 
importantly, economically.
    Take the LA area as a good example. It is spread out like 
the National Capital Region but with a higher density. It is a 
major center of economic activities.
    Ms. Norton. I have to stop you right there for a minute. 
They may well have gotten cut. What I indicated was, I'm asking 
you if you recognize that al Qaeda does have an MO, a known MO. 
They are looking for large concentrations of people that you 
can hit. We are not talking about the atom bomb here, so you 
can't just hit LA and expect it--we're talking about somebody 
that wants to hit someplace, and by hitting that one place you 
get an icon or you get huge numbers of people.
    The reason there is more chatter about New York than D.C. 
is because you hit a few blocks there, you have so many folks 
that you don't need to worry about LA, San Francisco or even 
Chicago.
    So I'm asking, with this notion of population, whether or 
not you are really focusing in on density, where al Qaeda has 
been focused, not just population.
    Mr. Foresman. We are focused on population. We're focused 
on population density. But, Congresswoman, as a good example, 
the day before Hurricane Katrina, one of our major metropolitan 
areas in America constituted 25 percent of the chemical 
production capability in America. The day after that, it 
constituted 45 percent because--not chemical, but petroleum--
because of the number of refineries that had been knocked out 
of service in Louisiana.
    What this points out to us is that there is a physical 
impact on people, but we also have to be concerned about the 
impacts on infrastructure, because you and I both felt the pain 
at the pump right after Hurricane Katrina when we had to go in 
and pay more for gas because the petroleum industry's 
capabilities had been reduced.
    Ms. Norton. Did you take into account, because you just 
named infrastructure, Madrid and London and the vulnerability 
of WMATA and its tunnels when these cuts were made?
    Mr. Foresman. We have taken into account the critical 
infrastructure here, and if you look at the other metropolitan 
areas where you have subway and metro systems, some that are 
subject to worse flooding than metro, as a prime example, we 
take all of these factors into consideration.
    Chairman Tom Davis. Thank you.
    Mr. Gutknecht.
    Mr. Gutknecht. I yield to my colleague from New York.
    Chairman Tom Davis. Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman. Thank you for the 
indulgence here.
    We are here, as you all know, because of what happened on 
September 11th. The Department of Homeland Security exists 
because of what happened on September 11th. It happened in New 
York and Washington, DC, and obviously in Pennsylvania.
    There are many who I think share the goal that the 
fundamental responsibility of the National Government is to 
protect innocent people. That was the intent of the Department 
of Homeland Security. We are here today in addition to answer 
the question fundamentally how we have gone astray.
    By way of background, I represent Staten Island and 
Brooklyn. More than 200 people were killed on September 11th; 
78 of the 343 firemen were from Staten Island; 29 people in my 
parish were killed. And I just don't want to have another day 
of mourning, another September 11th.
    I have been wholehearted in support to ensure that not one 
family in America ever again has to fall victim to an act of 
terror. So when we wake up and we realize that New York City 
sees a reduction percentage wise of upwards of 40 percent while 
other cities around the country, arguably not as high on the 
threat list, receive increases of 20, 30, 40 percent, we have 
to ask the fundamental question, are we doing what's right?
    The original intent of UASI went from seven cities to 35 to 
46 regions that now cover over 100 cities; is that right?
    Mr. Foresman. That's correct, Congressman.
    Mr. Fossella. Are we not drifting from the original intent 
of much of what USAI was meant to serve, that is, the areas 
like Washington, DC, like Chicago? I'm not saying here that New 
York deserves 100 percent, or Washington, DC, deserves 100 
percent. Just follow the threat, follow the risk.
    Mr. Foresman. Congressman, I think it's a very reasonable 
question that you have asked here. The 46 urban areas represent 
about 85 percent of the Nation's urban area risk, and why this 
is important--and part of this gets into the debate that you go 
for 80 percent, 90 percent, 85 percent. Where we saw the risk 
measures have a measurable decline to where there was a clear 
separation was about the 85 percent point, and that was those 
46 urban areas.
    I don't think there was any intent of the program that I'm 
aware of back when it was first established to say it was going 
to be 7 versus 50 versus 46 versus 30, but I think that we have 
to get beyond the discussion of funding on a single year and 
look at it over the course of funding activity and look at it 
in the context of managing risk. And we are responsible for 
finding a way to manage America's risk, and the way we best 
feel we can do that is to apply those dollars to get the 
maximum reduction in our nationwide risk, and that's how we 
came up with the 46 urban areas.
    Mr. Fossella. Having said that, in all the intelligence 
chatter, I'm not asking you to divulge anything classified, is 
there any city that is more targeted than New York City? Not 
just in this country but in the entire world.
    Mr. Foresman. Congressman, I don't know the specific answer 
to that. I will make the assumption that probably not, but I 
won't make it exclusively, but we should not equate threats 
with the complete discussion on risk. Threats are one component 
to it, but we have clear indications of al Qaeda and other 
groups' intents; through the radicalization and the 
globalization of the al Qaeda activities, we have clear 
understandings of their intent to wreak economic, physical and 
psychological pain elsewhere.
    Mr. Fossella. But am I asking too much to indicate that New 
York City is still the No. 1 threat?
    Mr. Foresman. It was the No. 1 risk ranker last year; it 
remains this year.
    Mr. Fossella. So if you sit back and know, far and above, 
with the two attacks in 1993 and 2001, that New York City is 
indeed No. 1, isn't there anybody sitting back saying, well, 
why are they seeing a reduction in funding? I'm just curious, 
nothing about the good people of Omaha, but are they in the top 
10 or 20?
    Mr. Foresman. Congressman, I think one of the things I 
would go to is this particular pie chart. If you look at New 
York City alone in terms of the total allocation of the UASI 
program from fiscal year 2003 through fiscal year 2006, you 
know they have not quite gotten a quarter but almost a quarter 
of the dollars have gone to New York City alone, and they have 
about 14 percent of the Nation's urban area population.
    But what I will tell you is, we are putting our heaviest 
focus and our heaviest attention in terms of financial 
commitments into New York City. We have and we can continue to 
do so this year, and it's averaged twice as much as other--as 
the next highest jurisdiction, not quite----
    Mr. Fossella. The reason is because that's where the risk 
and the threat is. Whether you live in New York or have family 
who visits, the millions of people from across the country, if 
you have a daughter or son who's a tourist, I think you would 
want them to be there.
    I have one other question.
    Mr. Gutknecht [presiding]. I have to intervene here because 
we are going to try to keep the hearing going through the vote. 
We have a vote on the floor of the House, and the chairman has 
run over to vote, he's going to come back, and we're going to 
go. I really need to let Mrs. Maloney have her chance. We can 
have a second round. If you want to run and vote, you can come 
back, and I think the chairman would be more than willing to 
entertain questions.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, and I support my colleague's line 
of questioning. He has joined, as I have, the chairman of 
Homeland Security Peter King in asking for a meeting with 
Secretary Chertoff. We sent that letter off in a bipartisan 
effort roughly 2 weeks ago. We have not heard back. Can you 
give us any indication when he'll be able to meet with us?
    Mr. Foresman. I don't know the specific date the meeting 
has been scheduled, but it's my understanding when I was last 
briefed on that a couple of days ago that the Secretary was 
more than willing to meet with the delegation, and it may in 
fact be early next week.
    Mrs. Maloney. I would like to go over my understanding of 
this year's process for distributing the Homeland Security 
funding. Let me see if I have this correct.
    Cities and States prepared an application for submission to 
the Department of Homeland Security, making their best case as 
to their threat, need and vulnerability. However, the 
individuals preparing the applications frequently do not have 
security clearances and, therefore, a lack of access to real-
time information about true risk and vulnerability their city 
or State may actually face. It is therefore the job of the 
applicant to give their best guess on what their need is, 
absent a classified threat assessment.
    After the applications are submitted, they are analyzed by 
a peer review board, and it is the job of the peer review board 
to analyze and rank applications on the basis of risk, 
vulnerability, among other things.
    Once again, due to the sensitive nature of some of the 
information involved and the lack of security clearances among 
members of the peer review board, they also lack real-time 
information regarding the actual risk or vulnerabilities to the 
cities and States being reviewed and ranking.
    I have been informed that the methodology for the peer 
review process was developed and implemented by a consultant 
firm hired by the Department of Homeland Security, reportedly 
Booz Allen Hamilton, and it is my understanding that it was 
this consulting firm that administered the review, collected 
the review, scored the sheets following the review and ranked 
State and urban area applications.
    I have also been informed that it was only after Booz Allen 
Hamilton completed their analysis that the Department of 
Homeland Security became involved in the process by signing off 
on the analysis and allocated funding based on Booz Allen 
Hamilton's works.
    So my first question, Mr. Foresman, is my understanding of 
the process correct?
    Mr. Foresman. It is not very correct at all, Congresswoman.
    Mrs. Maloney. Let me ask you, do State and city application 
writers have access to the threat information to best prepare 
their applications?
    Mr. Foresman. Congresswoman, if you might, I can maybe try 
an explanation to capture all of it.
    Mrs. Maloney. If I could, answer----
    Mr. Foresman. There are two very distinct points. The 
application writers do not have the specific threat analysis 
data or the risk analysis data in front of them, but it's not 
necessary in the context of the preparation of the application.
    Mrs. Maloney. Let me just ask you, do the members of the 
peer review process have security clearance and access to real-
time threat and risk assessment?
    Did they have security clearance and access to real-time 
threat and risk assessment?
    Mr. Foresman. Congresswoman, I won't give you a blanket 
answer, but I'll be more than happy to give you a written 
response on whether all, some, none. But what they were looking 
at was not the risk piece of it. Let me be very clear. In 
terms----
    Mrs. Maloney. Why in the world were they not looking at the 
risk piece of it? Your application says risk analysis, risk-
based funding.
    Mr. Foresman. Congresswoman, there are two parts to the 
analytical process. The first part is the risk analysis. The 
risk analysis is conducted by the Federal interagency, if you 
will, predominantly by the Department of Homeland Security. 
That is based on the classified information, the unclassified, 
the open-source information, the data sets, the population 
data. That forms one piece of the allocation equation.
    On the effectiveness score, the peer reviewers were 
provided, in terms of the application packages, all the 
applicants were given a package that says, here are the 
national priorities, here are the things by which your 
application will be rated toward those national priorities; you 
understand your risk, what you need to do locally. And we've 
asked them to submit the peer review data.
    Mrs. Maloney. My time is running out, and I would just like 
some questions asked, specific questions. Do members of the 
peer review process have access to and sign off on the final 
rankings of the applications, yes or no?
    Mr. Foresman. No.
    Mrs. Maloney. Did the Department of Homeland Security have 
a contract with Booz Allen Hamilton to conduct the peer review 
of these grants, yes or no?
    Mr. Foresman. Congresswoman, that cannot be answered with a 
yes-or-no question.
    Mrs. Maloney. Did Booz Allen have a contract with the 
Homeland Security Department?
    Mr. Foresman. Booz Allen had a contract with the Department 
of Homeland Security to facilitate the peer review process, not 
to do the evaluation of the investment justification.
    Mrs. Maloney. Can you provide me and the committee with a 
copy of that contract?
    Mr. Foresman. We'd be more than happy to, Congresswoman.
    Mrs. Maloney. Was the Department of Homeland Security an 
active participant in the peer review process, or was that 
responsibility contracted out to Booz Allen Hamilton?
    Mr. Foresman. We used Booz Allen Hamilton to help 
facilitate the peer review process, but there was a second 
level of review by Federal Department of Homeland Security 
employees of the scoring, and they were also present during the 
scoring processes.
    Mrs. Maloney. Who actually ranked the States and the urban 
areas? Was it the peer review process, Booz Allen or the 
Department of Homeland Security?
    Mr. Foresman. The Department of Homeland Security, based on 
an amalgamation of information from the risk analysis and the 
peer review process.
    Mrs. Maloney. Who in the Department of Homeland Security 
made that decision?
    Mr. Foresman. Congresswoman, I don't know that it was any 
one person, but I will get you the specifics of who was 
involved in that.
    Mrs. Maloney. It appears that you shifted the formula from 
risk to need. Because if you based it on intelligence and real 
risk, there's no question that it would be New York City and 
D.C. I mean, did you consult the list of targets from al Qaeda 
and the intelligence from al Qaeda that has been reported in 
the papers? And some of us have seen it where all of the 
chatter is primarily, three-fourths, New York. Then maybe they 
get down to D.C. But by all security accounts, whether it's the 
FBI, the CIA, the National Intelligence Director, the 9/11 
Commission, all of them report that all of the intelligence, 
that the risk is New York City. The threat they believe is a 
bomb that would be put off that would kill hundreds of 
thousands of people.
    I lost--as my colleague Mr. Fossella and we've worked on 
many responses to September 11th together--I lost 500, he lost 
300. All of us lost people in New York. We appreciate the help 
of our colleagues here in Congress, but this formula does not 
reflect the reality of what's out there or the reality of risk.
    I'm all in favor of a State aid formula to help States, but 
don't call it Homeland Security, call it municipal overburden. 
Call it aid to States, but don't call it Homeland Security.
    I look forward to our meeting with Mr. Chertoff, and my 
time is up.
    Mr. Foresman. Thank you, Congresswoman.
    Chairman Tom Davis [presiding]. I have a few more 
questions. DHS said it worked closely with the urban areas 
applying for funding. It also provided a guide outlining the 
application process.
    Mr. Reiskin, what role did DHS's office of the National 
Capital Region play in assisting you with the application 
process?
    Mr. Reiskin. The application was developed, first of all, 
being guided by a strategic planning process that was in part 
guided by the Office of National Capital Region Coordination.
    Chairman Tom Davis. DHS helped you put together the plan, 
basically.
    Mr. Reiskin. They were an integral part. That office was an 
integral part, really leading the effort to develop the 
strategic plan guiding the region for the next 3 to 5 years. 
That was the starting point for the process.
    From there, the senior policy group which includes the 
Office of National Capital Region Coordination and the chief 
administrative officers, so, basically, the State and local 
leaders outlined the direction for the application, identified 
the target capabilities around which we would build the 
application. There were eight national priorities. We added six 
regional priorities, and then we let our subject matter 
experts, the police chiefs, fire chiefs, transportation 
directors, do the analysis of the region's position in each of 
those capability areas.
    That was all brought back together and again reviewed by 
the State and local level leaders, which includes the Office of 
National Capital Region Coordination.
    So throughout the process, from start to finish, they were 
a part of the process.
    Chairman Tom Davis. Did they give you any suggestions that 
you didn't take in putting the application together?
    Mr. Reiskin. I would say that the office was not acting as 
really an agent of the Office of Grants and Training; they were 
acting really as our partner, our Federal partner in the 
region, not really serving in the role of advising us on the 
grant process itself.
    Chairman Tom Davis. But the plan to which the grant applied 
was coordinated with DHS, correct? The regional plan?
    Mr. Reiskin. The regional strategic plan was coordinated 
with the Office of National Capital Region Coordination.
    Chairman Tom Davis. Which is part of DHS.
    Mr. Reiskin. Part of DHS and submitted to another part of 
DHS for approval. All urban areas have to submit these 
strategies.
    Chairman Tom Davis. So you were basically carrying out in 
your grant application what the Department of Homeland Security 
had asked you and worked with you to do.
    Mr. Reiskin. Absolutely. We followed the guidance to the 
letter from the Department.
    Chairman Tom Davis. Did they at any point say, we don't 
think this is going to cut it? We think you need to do more? As 
you were working through the grant process, did they say that 
anything was remiss?
    Mr. Reiskin. We did not get feedback from the Office of 
Grants and Training.
    Chairman Tom Davis. Did you fully understand how the DHS 
Homeland Security grants evaluation process was different for 
fiscal year 2006, that you would have to first submit fully 
justified plans for evaluation before any funds were allocated 
to your jurisdiction, unlike previous years with where you were 
awarded an amount without a detailed explanation?
    Mr. Reiskin. No, actually the Department was fairly clear 
at a high level about the risk, the effectiveness, the fact 
that we were now competing for these funds, the fact that we 
would have to justify our need. We didn't have visibility, and 
I'm not sure they even had it developed at the time what the 
actual formulas would be, how certain things would be weighted 
one versus the other, but they were fairly clear that they were 
using this risk.
    Chairman Tom Davis. Different than it had been before?
    Mr. Reiskin. That it was very different. To their credit, I 
think they did a fair bit of outreach and documented process to 
make that clear.
    Chairman Tom Davis. Did you make adjustments in the 
application preparation process from what you had in previous 
years?
    Mr. Reiskin. It was almost unrecognizably different.
    Chairman Tom Davis. Did you undergo any internal evaluation 
to determine the best strategy for preparing and submitting the 
application in light of the changes at DHS?
    Mr. Reiskin. There was considerable discussion among the 
State level group and local level group in addition to the 
emergency preparedness council for the region which has local 
elected leaders, private sector folks, nonprofit folks. We 
discussed starting early in December when the guidance was 
first released.
    Chairman Tom Davis. Mr. Foresman, let me just ask you, the 
city's application was not rated that highly. When you look, it 
was in the bottom quarter, I think. They were coordinating with 
the local Homeland Security folks. As he said, he ran this up 
the ladder, and it had kind of been approved. I don't expect 
DHS to try to grease the wheels for the city. I think it is a 
competitive process. But in light of that, what was deficient 
about their application when you compare it to other 
jurisdictions?
    Mr. Foresman. Congressman, I don't have the specifics on 
the National Capital Region, and we will provide that, but let 
me be----
    Chairman Tom Davis. Why not? You knew you were coming here 
today.
    Mr. Foresman. Mr. Chairman, let me get into----
    Chairman Tom Davis. You knew you were coming here today to 
talk about this.
    Mr. Foresman. Yes, sir.
    Chairman Tom Davis. I think they're interested in what they 
didn't do right. They sought guidance from DHS as they went 
through this process. I think there was every expectation that 
they wouldn't be cut 40 percent. I'm just trying to ask what 
went wrong here. Can you give me some help?
    Mr. Foresman. Mr. Chairman, absolutely. Let me be very 
clear, they were not deficient in their application, and I very 
much want to underscore the nature of the peer review or the 
peer preparation process that they used here in the National 
Capital Region.
    In the context of the effectiveness scoring, the 
effectiveness measures, their application was reviewed in 
relation to the others submitted from urban areas around the 
country, a relative ranking provided to that. And the simple 
reason for doing this, Mr. Chairman, is to encourage regions to 
submit applications that are consistent with the national 
priorities that will be sustainable even beyond the end of 
Federal grant funding.
    And in terms of their ranking, it doesn't mean that they 
did a good job or bad job on writing the application; it simply 
means that, in terms of where they chose to make their 
investments in relation to the other urban areas around the 
country, there was some level of ranking.
    The challenge, Mr. Chairman, I would have had coming in 
here is I would have had to have to know the specifics of what 
was in 456 investment justifications submitted from around the 
country and the specifics for all of your members on your 
committee. So I will be more than happy to provide you a very 
detailed written response, sir.
    Chairman Tom Davis. Are you comfortable with the evaluation 
criteria that DHS used this year to come to these outcomes, or 
do you suspect maybe next year, in light of some of the 
criticisms this has drawn, the way the allocation process 
works, that maybe it ought to be reviewed?
    Mr. Foresman. Congressman, Mr. Chairman, the one thing I 
will tell you is that I never let any program sit still without 
seeking continuous improvement. That has been the hallmark of 
the way that I have approached public policy over nearly a 
quarter century of service at the State and local level.
    I will tell you, though, that I feel confident in our risk 
analysis process. I feel confident in our peer review process, 
but we have not been effective in articulating and 
communicating that as we should have to the stakeholder 
community including the U.S. Congress. But, Mr. Chairman, if we 
can find something we can do better next year, we will 
absolutely do it.
    Chairman Tom Davis. George, I have a high regard for you. 
You were great in Virginia, and you have a tough job here, and 
you're defending something here that you didn't do these 
decisions, were peer review work. But I have to tell you, on 
the risk analysis side, if you're comfortable on the State side 
comparing the Nation's Capital to Montana and comfortable 
putting Montana and North Dakota and South Dakota ahead of the 
District in terms of the risk analysis as you defined it, I 
think there is something wrong.
    Mr. Foresman. Mr. Chairman, let me be very clear on that 
particularly. I was referring to the risk analysis as we did 
the threat vulnerability and consequence piece of it. The one 
thing to understand about D.C.'s ranking in relation to Montana 
is that is based on a formula set by the Congress that in large 
part drives our funding allocation process there, and it drives 
the way that we analyze this.
    I'm not comfortable, frankly, comparing the District of 
Columbia to 50 other States. I think that's unfair to the 
District, but it is the nature of the program. It's the nature 
that they're in the program, and so we've got to make the best 
of it.
    Chairman Tom Davis. They were ranked below every State, 
weren't they?
    Mr. Foresman. Primarily because of the population issue.
    Chairman Tom Davis. I think they've got more people than 
Alaska.
    Mr. Foresman. I don't know that they were at the total 
bottom.
    Chairman Tom Davis. I think there were some territories 
that ranked ahead of it.
    We will look forward to that information, but when you are 
taking a look at your grants and you have a factor of five for 
the State grants and seven for the urban grants, I think it 
really skews the grant process because vulnerable areas like 
the District and New York end up on the short end of the stick.
    Go ahead.
    Mr. Foresman. Mr. Chairman, I would just offer, I think 
that is indicative of the discussion that we have had here this 
morning, where it's difficult to keep separate the discussion 
about the State grant programs and the urban area grants 
programs, how risk versus a formula plays into each one, and I 
think it underscores how we need to do a much more effective 
job in our communication with the State and local partners in 
future years.
    Chairman Tom Davis. Let me ask this, under DHS funding 
requirements, a program and capability review is the first step 
in preparing a program capability enhancement plan, which is 
the building block for preparing investment justifications for 
Federal funding. What approach did the National Capital Region 
use in its program and capability review?
    For example, did the National Capital Region use a risk-
based approach based on assessing current capabilities, 
determines how these capabilities responded to regional risks 
and threats and the gap between current and needed 
capabilities? What key information pieces were used in the 
review? Did the NCR review individual jurisdiction plans? Can 
you help me with that?
    Mr. Reiskin. The first thing we did was we availed 
ourselves of technical assistance offered by the Department of 
Homeland Security to kick off the program and capability review 
process both for the District and for the region. As I 
mentioned, it's outlined in our testimony as well, we 
identified six target capabilities in addition to the eight 
national priority capabilities. We then basically held 
workshops with the experts in each of those 14 capability areas 
for the region. Again, these are the fire chiefs, the police 
chiefs, health directors. We used that workshop process, 
following the guidance religiously, to work through the 
identified strengths, the weaknesses, things that were 
identified through our strategic planning process last year; to 
the extent that we had the information, threats that we faced, 
and out of that developed a pretty comprehensive plan in the 
areas of people, equipment, training, other resources, fairly 
complete and voluminous, of strengths and weaknesses for each 
of the 14 capability areas.
    It was out of that we developed the investment plans, out 
of that we developed the investment justifications that we 
submitted in our application.
    Chairman Tom Davis. Let me ask you this question. It's not 
quite a friendly question, but can I get the answer because, 
according to research by the American Enterprise Institute in 
March 2006, ``Washington, DC, used the region's first wave of 
Homeland Security aid as seed money for a computerized car-
towing system, and the city also used $100,000 in homeland 
security money to fund the popular Summer Jobs Program.'' Is 
that accurate?
    Mr. Reiskin. These are not new issues that arose. This is 
not Department of Homeland Security funds. This is the $168.8 
million congressional appropriation we received in fiscal year 
2002. There was----
    Chairman Tom Davis. So that wasn't this kind of grant money 
or earmarked Homeland Security money?
    Mr. Reiskin. This preceded the standup of the Department of 
Homeland Security. That was out of a congressional 
appropriation. The Summer Jobs Program, I believe, was on the 
order of $18,000 out of the $168.8 million allocation, and 
there was a program, it's called--we actually still have it 
through our Department of Employment Services, called Team 
D.C., where we engage youth in disaster preparedness and 
community outreach surrounding disasters, and it's a program 
that we actually think is very good.
    The computerized towing contract, I can't say for certain 
if that was funded. I think it was $35,000 out of $168 million. 
If it was, I would offer that the ability to efficiently move 
stalled vehicles during a disaster would not have been an 
unwise expenditure of funds.
    Chairman Tom Davis. I just wanted to give you an 
opportunity to put it on the record.
    Ms. Norton.
    Ms. Norton. Just a few more questions, Mr. Chairman.
    I just want to understand, Mr. Foresman, whether your 
testimony is that Congress, it is Congress that mandated the 
increases. For example, that Louisville got a 70 percent 
increase, that Omaha got a 61 percent increase, you're saying 
Congress is responsible for that.
    Mr. Foresman. Congresswoman, what I am offering to you is 
the congressional direction was to move to a risk-based process 
and an effectiveness scoring system, and those things 
contributed to the changes. And the percentages, while 
dramatic, represent----
    Ms. Norton. Congress only mandated a risk-based system. You 
had to then go and figure out what that meant. Congress doesn't 
have anything to do with these increases or with these cuts. 
They're based on the formula that the Department came up with, 
not with any, ``congressional mandate.''
    Of course everybody on this panel is for a risk-based 
system; the controversy is about whether we mean the same 
things when we say that.
    Mr. Foresman, when I hear you describe the competition, and 
we value nothing more than the competitive process of the 
Federal Government, but when I heard you discuss the 
competition for these funds that you couldn't tell the chairman 
until you looked at all the other ones, etc., it sounded like 
nothing--it sounded exactly like the kind of competition that 
States and localities go through when they're applying for 
education grants and the rest.
    It was kind of scary to hear that it was the kind of same 
old competition, albeit with subsections, just like other 
competitions for grants have subsections.
    The reason I ask that or raise that is, you are, of course, 
aware that this region, unlike any region in the country, by 
mandate of Congress in the Department of Homeland Security 
legislation, has a coordinator for this region paid by the 
Department, that is to say by the Federal Government.
    I would like to know, in light of the fact that Congress--
you want to know what Congress has mandated, when it lays out 
the money for a Federal coordinator and says that it will be 
paid out of DHS funds, Congress is mandating something very 
specific.
    I want to know whether or not, in light of this unique 
role, whether the coordinator was given instructions about how 
he was to relate to this region so as to make sure that, in his 
paid capacity, he helped the region to make out the kind of 
application that could protect all the Federal assets here. 
What was his role?
    Mr. Foresman. Congresswoman, there are two parts to the 
answer here. First, Tom Lockwood, who serves as our Director of 
the Office of National Capital Region Coordination, the 
National Capital Region is the only place where we have a 
single, full-time dedicated office and Federal personnel 
dedicated to regional activities. We are moving to a regional 
structure elsewhere in the country, but here in the National 
Capital Region, Tom works a wealth of issues from working with 
the communities on strategic planning preparation, operational 
coordination, coordination among the Federal work force issues.
    Ms. Norton. I want to know, given the importance of this 
region, that we are paying somebody to make sure that this 
region, even if the rest of the regions fall flat, that this 
region does what it is supposed to do because of what is 
located here. I want to know whether he had a specific role in 
making sure that these applications met your terms?
    Mr. Foresman. Congresswoman, I will answer it this way: Mr. 
Lockwood works with his three counterparts on a regular basis--
--
    Ms. Norton. Yes or no? Did he have a role? My goodness, Mr. 
Foresman.
    Mr. Foresman. He was involved in the strategic planning 
process, Congresswoman.
    Mr. Norwood. He did not have a role, it seems.
    Did he have a role, Mr. Reiskin? Did he have a role versus 
the panel? Did he tell you, look, this is the National Capital 
Region, I am the coordinator; let me just put you on notice, 
these are the kind of things you have to do in order to get 
your applications to pass muster? Could you all tell me, 
please?
    Mr. Reiskin. I would say that Mr. Lockwood in his capacity 
serves as a peer with us on the senior policy group which makes 
the final decisions in terms of the submission of the 
application and the ultimate award of the funds. He was not 
serving as a kind of liaison to the Office of Grants and 
Training, which was driving the grant funding process. I think 
they might argue it would have been a conflict for him to do 
so.
    Mr. Norwood. Would it have been a conflict? That is really 
my point. If you were only protecting all of us, that might 
have been a conflict. This Department, this Congress and every 
Federal asset, which happens to be virtually all of them in the 
United States, are implicated here.
    I am not talking about whether or not he was helping you to 
protect D.C. or even Maryland and Virginia. I am talking now 
about, and I have to ask you, Mr. Foresman, if something 
happens here, are you prepared to say, for want of a good 
application, they didn't get the funds?
    We are thinking about the uniqueness of this region, and I 
really don't hear in your discussion of the competition a 
sensitivity to that uniqueness as indicated by the Congress 
with a Federal coordinator paid by Federal funds.
    It sounds as though this was a region among others. We 
looked at it as we look at others. We will look at 4,000 other 
applications, and then we will see how you came out. If that is 
what happened, that raises a very serious question.
    For example, let me ask you this: We know that asset risk 
is generally generic. Here I am trying to point to the 
difference between this region and many others.
    However, let's take Union Station. If we are talking about 
an ordinary train station, everybody has a train station. 
Philadelphia has a train station. Every place has a train 
station. This is what we are talking about.
    We are talking about the hub that the Federal workers use 
as a transportation hub for the region. We are talking about 
the Union Station that is within a couple of blocks of the 
Capitol. We are talking about Union Station where Members of 
Congress have events on the premises and can hear the trains 
rolling underground as they come in.
    In calculating the risk of Union Station, do you in fact 
treat it as other rail stations, or how do you in fact 
calculate the risk in this example I pose?
    Mr. Foresman. Congresswoman, let me go back to the first 
part of your question where you talked about the effectiveness 
score. I want to be very clear that 66 percent of the funding 
is based solely on the risk piece of it; 33 percent is based on 
the effectiveness.
    Ms. Norton. Say that again?
    Mr. Foresman. Sixty-six percent of the funding allocations 
are based solely on risk. It has nothing to do with 
effectiveness. And of the 33 percent that is based on 
effectiveness, the maximum, the maximum that any one 
jurisdiction could be affected by that effectiveness score is 7 
percent of their total allocation.
    Now, to the second part of your question----
    Ms. Norton. That wasn't my question. I asked about Union 
Station.
    Mr. Foresman. No, you asked me a question, and the first 
part, I was trying to address that one for you as well.
    Now with regard to Union Station, when we look at a 
specific asset, we look at it in the context of a particular 
geographical area, and in this case, the National Capital 
Region is a unique geographical area. We give special attention 
to the National Capital Region because it is the seat of 
government. So in the context of our evaluation, we take into 
account that it is not your average train station.
    Chairman Tom Davis. Thank you.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. A lot of the areas 
have been covered here, but I do want to ask you, with respect 
to the amount of funds, Mr. Foresman, for the D.C. area under 
the Urban Security Initiative, as I understood your answer to 
the last question, even if the D.C. area had gotten the maximum 
on the effectiveness score, the total increase would have been 
7 percent? I just want to make sure I understand.
    Mr. Foresman. Give or take 7 percent.
    Mr. Van Hollen. But you graded their submission, as I 
understand it, in the bottom 25 percent on effectiveness, is 
that right?
    Mr. Foresman. Congressman, I will need to double-check to 
see if they were in the bottom 25 percent of effectiveness, but 
I believe that is correct.
    Mr. Van Hollen. I guess I really haven't heard yet today 
why it is they scored in the bottom 25 percent effectiveness in 
your opinion. We have representatives here who were very 
involved in the submission. We have heard now that Mr. 
Lockwood, I guess, was not involved, and I want to ask a couple 
of questions about that. But we have representatives here who 
know their stuff; they know their business. They have teams of 
people working on it. Why was their application graded in the 
bottom 25 percent? The bottom 25 percent in my kids' school is 
a failing grade. I would like to know why that was. They would 
like, I am sure, to know, so if they disagree with you, they 
can contest it; or if they agree with you, they can improve in 
the future.
    Mr. Foresman. Congressman, let me be very specific. This 
was not a grade. This was a relative measure to all of the 
other urban area investments that were submitted.
    Mr. Van Hollen. Where you graded on a curve.
    Mr. Foresman. In the context of it, from the standpoint of 
those urban areas, they submitted proposals which were deemed 
during the review process by the reviewers to be at a certain 
level of compliance in terms of sustainability beyond the end 
of the grant program, consistent with the philosophical 
approach of the national program, and this goes back to the New 
York piece of it, Congressman. In the context of it, we had 
this discussion with Mayor Bloomberg, they had a different 
philosophical approach than what the national program is for.
    We are trying to develop a bunch of independent urban area 
activities as part of an interdependent national approach, so 
we have to have some target from a national perspective.
    But I want to be very clear in saying, having worked 
closely with these gentleman over the years, having worked in 
the National Capital Region and living here today, I am proud 
of the work that has been done. I feel safe in terms of what 
they are doing.
    This was not a scoring of the capability of the National 
Capital Region. This was a ranking in terms of how well the 
investment justifications comported with the national 
priorities in relation to the 400 or so that we received from 
other metropolitan areas.
    Again, I go back to the scoring piece of it. At the end of 
the day, there has been much made about this effectiveness 
score. In the most extreme case, the maximum of adjustment 
would have been about 7 percent. I don't know in the context of 
where they fall what that would have done to the dollars, but 
we are talking in, probably, the single digit millions here in 
the National Capital Region.
    Mr. Van Hollen. But let me just get to that issue. You 
mentioned sustainability and lack of compatibility with the 
national plan. If you could just be specific about it.
    Mr. Foresman. Yes, sir. One of the things that Congress 
directed that we do is to develop the National Preparedness 
Goal to make sure that we were providing States and communities 
and, frankly, the Federal interagency with a clear road map of 
what levels of preparedness are we trying to get to in urban 
areas, in States, in regions, in individual communities; what 
do we need to do as a nation?
    So the National Preparedness Goal informs the grant 
programs in terms of the priorities in those grant programs. So 
what we are essentially saying to a particular community, or in 
this case an urban area, how will your proposals increase your 
ability to get to that desired National Preparedness Goal and 
also fit within your regional strategy and be sustainable 
beyond the end of the Federal grant funds?
    Congressman, let me be clear. This is a tough position for 
all of us. But, you know, at the end of the day, the Federal 
assistance is not designed to be the primary tool for 
protecting communities. It is designed to supplement local and 
State dollars that this region has been very good about 
committing to its public safety activities, whether crime or 
terrorism.
    And, you know, I will tell you the challenge that we face 
from a public policy debate is we have not had to do give and 
take at the State and local level in terms of what we are not 
going to do. If we feel like these security measures that 
aren't being funded by the Federal Government, if they are that 
important, are we still going to go ahead and do them?
    Mr. Van Hollen. I appreciate the fact that the local 
jurisdiction is supposed to be the primary mover in this area, 
and I think all of these gentlemen next to you do as well. But 
that doesn't mean that it is not important for us to rely on 
the Federal contribution, especially in the Nation's Capital. 
So we are all still struggling I think with why we are seeing 
such a reduction from last year.
    Part of it, obviously, is due to the reduction of the 
overall level. Part of it may be due to risk adjustments upward 
for other areas. Part of it, though, is due to the fact that, 
at least on a curve, we were at the very bottom.
    I guess if I could just ask the other witnesses at the 
table whether you have had an opportunity to look at the 
criticisms or the evaluation by the Department of Homeland 
Security and whether you have any responses to them or whether 
you feel that you are still left in the dark as to why you 
didn't measure up relative to other jurisdictions that 
submitted their proposals?
    Mr. Crouch. I will respond to that, Congressman. Thank you.
    We have been offered opportunities by the Department of 
Homeland Security, including Under Secretary Foresman, to meet 
with them in the future to get that detailed analysis. We are 
very eager to do that for all the reasons you so well stated 
just awhile ago.
    Mr. Van Hollen. Let me make it clear. You have not yet had 
an opportunity to review any of that?
    Mr. Crouch. We have not.
    Mr. Van Hollen. One last question that goes to Mr. 
Lockwood's role. I think we would all agree, Mr. Foresman, I am 
sure you would agree, the goal is to have in place a plan that 
best protects people, the National Capital Area and other areas 
of threat around the country; right?
    Mr. Foresman. Yes, sir.
    Mr. Van Hollen. So I am a little concerned about this idea 
that Lockwood's participation in this effort to come up with 
the plan would somehow be seen to give this area a 
disadvantage, because our goal should be for him to provide the 
input that makes it the very best plan we can have so that the 
people in this area can access the full amount of resources 
that are potentially available for them to access.
    This idea that somehow when we, the Congress, have created 
this position specifically because it recognized the kind of 
unique threat posed to people in the National Capital area, to 
say that person would somehow be, you know, it wouldn't be fair 
for that person to participate, seems to me to put sort of 
bureaucratic gaming concerns over the welfare of the people of 
the region. Because what we want is a good plan that everyone 
agrees is a good plan.
    So why would you not allow him to help participate so that 
this region could get the very best plan possible?
    Mr. Foresman. Congressman, I don't believe I said, it 
wouldn't be fair, and, if I did, I was incorrect in that 
statement. It may have been said by one of the other panelists. 
We expect Tom to be engaged, but he has got a multitude of 
things that he is engaged in. The greater expectation is for 
our team in our Grants and Training Office, who works with the 
community on a regular basis, is in constant contact with them, 
to provide them the advice and counsel.
    But, Congressman, let me also be clear that one of the 
things, and the chairman pointed this out, that this needs to 
be about a transparent process that is not driven by politics, 
and there have been some incorrect allegations to that extent. 
This has got to be driven by a very clear process that puts 
everybody in an equitable playing field, but doesn't do it in 
such a bureaucratic way that we don't get the best solution for 
the region. So we understand that.
    Tom is not excluded from the process, but he doesn't have 
the intimate grant expertise that the other folks who are 
assigned, the gentlemen who are assigned here in the National 
Capital Region, will have.
    So it may be more appropriate to say Tom was involved to 
the degree he should have been involved, but we also had our 
team members from our Grants and Training shop who are working 
with the individual States and the National Capital Region as a 
regional jurisdiction, working with them throughout the 
process.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Chairman Tom Davis. Mr. Fossella.
    Mr. Fossella. Thank you, Mr. Chairman.
    Mr. Foresman, it is my understanding that the funds from 
the State Homeland Security Grant Program can be used by the 
States to increase preparedness for building basic security 
capacities in their States and the UASI program is intended to 
protect the largest urban areas in the country. Is that 
correct?
    Mr. Foresman. That is correct, Congressman.
    Mr. Fossella. So the question I have is whether the States 
and cities, shouldn't they be competing within the State 
Homeland Security Grant money for ``building basic security 
capacities'' instead of UASI?
    Mr. Foresman. Congressman, I think in the context of the 
guidance that we received as part of the appropriations 
process, they did not make the distinction between the two 
programs. So what we are looking to do is to build capacity in 
both contexts.
    In the case of New York City, we had the conversation with 
the mayor, you know, is capacity paying for the overtime costs 
in the case of the New York Police Department or other things? 
It represents a philosophical discussion that will go into the 
grant development process in the future.
    Mr. Fossella. So do you see the UASI grant program as an 
opportunity to shift funds, let's say, to maybe what many of us 
believe--I don't think it is a philosophical difference. I 
thought that the State Homeland Security Grant Program is 
different from UASI insofar as the State Homeland Security 
Grant Program was to allow States to increase preparedness for 
building basic security capacities, as opposed to UASI, which 
was originally intended for the large Urban High Threat Areas.
    You are saying you can go in there and take the money out 
of UASI because you have been guided by the appropriations 
process to do so?
    Mr. Foresman. No, Congressman. If that is what you 
perceived I said, that is not what I intended to say. We view 
these programs in the context of a singular grant program. What 
we are looking to do is to make sure that expenditures at the 
urban area are consistent and not conflicting with what a 
particular State is doing as part of an overall national 
initiative.
    Mr. Fossella. When you say single, so you see both fund 
programs as one funding stream?
    Mr. Foresman. We see them in the context of broad Homeland 
Security funding but specific different program areas.
    Mr. Fossella. You don't sit there and say, OK, we are going 
to take some money from UASI and some money from there. You see 
it as one pot of money to comply with your goal?
    Mr. Foresman. Well, based on the guidance that we are 
provided by Congress, we have the allocation within the 
particular sub-program areas, if you will.
    Mr. Fossella. Sub-program areas?
    Mr. Foresman. Between the urban area program and the State 
Homeland Security Grant Program.
    Mr. Fossella. I don't think I have heard you. Do you see it 
as one pot of money or not? Yes or no?
    Mr. Foresman. Yes, Congressman, we do see it as one large 
pot of money, with many different utilizations.
    Mr. Fossella. We respect to, among the different 
submissions, particularly to the purity of process, can you 
reveal where New York fell within that process on the 
applications?
    Mr. Foresman. New York State or New York City?
    Mr. Fossella. New York City.
    Mr. Foresman. Congressman, I don't know, but I will provide 
you a written response.
    Mr. Fossella. It was my understanding it was toward the 
bottom, like toward the lower, like Washington, DC
    Mr. Foresman. That is generally my recollection based on 
the discussion that Secretary Chertoff and I had with Mayor 
Bloomberg. Again, one of the things, it was a very good, a very 
constructive discussion in the context of, did New York, from a 
philosophical standpoint, about 27 percent of what they were 
asking for was personnel costs, which tend not to be allowed in 
broad terms under the UASI program. So that was part of it.
    There were other issues. But, again, it doesn't point to 
bad programs in New York City. It doesn't point to bad 
activities in New York City. It just simply says that, in terms 
of your relative ranking, they scored differently than the 
others submitted from around the country.
    Mr. Fossella. It was my understanding, again, it was toward 
the bottom. I think you are confirming that. But you say you 
are going to get that.
    Two points, one on process, one on substance. That 
conversation took place after the grant program was announced; 
is that right?
    Mr. Foresman. That is correct.
    Mr. Fossella. Do you think it was the responsibility of 
anybody at Homeland Security to have an obligation to go back 
to, for example, New York City and say that your application or 
your submissions are wrong, rather than wait to make that 
determination? Do you think anybody had that obligation?
    Mr. Foresman. Congressman, in terms of the process, there 
is ongoing discussion regular between New York City and their 
designated liaison in our Grants and Training shop. When the 
applications came in, we went through those applications to 
make sure that all of the component pieces were there so that, 
if someone left out a piece of paper, they weren't going to be 
excluded from the review process.
    But what we did not do, we did not go in and preview any of 
the applications to say, this is on point, this is not on 
point. That is what the peer review process was about. With the 
recognition that, as we have gone through this process, we have 
tried to make sure that we treat New York and Washington, DC, 
with the understanding that they are the highest-risk urban 
areas, that they are unique in many, many ways, but also put it 
on an equal playing field with the other urban areas from 
around the country, because, at the end of the day, the 
challenge is not to be up here saying that we allowed anything 
other than a very objective review process to have guided our 
funding decisions.
    Mr. Fossella. Back to the substance aspect of it, I am not 
so sure on the process of whether--I do believe somebody in 
Homeland Security had an obligation to step forward. If it was 
a function of who had the best application, you can make the 
hypothetical that a city with 100 percent threat that submitted 
a lousy application, but a city with zero threat who submitted 
the best application would get the funding. So let me push that 
a side for a second.
    Is there any movement to change the philosophical view? A 
couple weeks ago, there was a conviction in New York city of a 
man who plotted to blow up the Herald Square Subway station. 
That was not done with so much building basic security 
capacity; that was human intelligence for the most part. That 
was the 1,000-plus New York City police officers to the tune of 
$200 million on an annual basis, which is larger than the 
entire Police Department of Denver, CO, for example.
    If we determine that human intelligence is the best way to 
thwart or prevent a terrorist attempt, don't you think that 
maybe the philosophy that Homeland Security should change in 
terms of providing adequate funding to meet and thwart those 
threats, rather than just building basic security capacity?
    Mr. Foresman. Congressman, two points to that. First, let 
me address the first point where you said the effectiveness 
would have--a real bad application versus a real good 
application.
    I just need to be very clear. It would have made very 
little impact in terms of the total dollars allocated, in New 
York City or anywhere else.
    The second point to the particular philosophical piece. 
That is the broader public policy discussion that has been had 
in the U.S. Congress with States and communities over many, 
many years about, should the Federal Government provide funds 
to communities for personnel costs, whether it is personnel 
costs in this case for cops on the beat doing crime reduction 
or whether it is personnel costs for law enforcement personnel 
doing human intelligence. That is part of a broader debate.
    I will tell you, on the whole piece of intelligence, as a 
good example, that is the one area where we have provided 
flexibility to urban areas in the context of intelligence 
fusion to be able to use these dollars for some personnel 
costs, because we recognize, prior to September 11th, that was 
a capacity that very few urban areas, New York City being one 
of the exceptions, that was a capability that many areas didn't 
have.
    So we do give flexibility in those particular areas, but 
not for a broad number of people to be out, ``collecting 
intelligence for analysts.''
    Mr. Fossella. If I hear you correctly, a city like New 
York, for example, has that flexibility, to a point?
    Mr. Foresman. To a very limited point in the context of 
intelligence and from an analytical standpoint, not a 
collection standpoint. You would think probably about law 
enforcement personnel on the street being more on the 
collection side than on the analytical side.
    Mr. Fossella. I know there are other questions. I yield 
back.
    Chairman Tom Davis. Thank you very much.
    Mr. Ruppersberger.
    Mr. Ruppersberger. Well, I think one of the things that is 
occurring here today is that we have people, and you, Mr. 
Foresman, are attempting to do your job, and you seem to be 
very competent. But it seems to me that you are trying to 
defend a major system that, when you look at the end game, it 
is just from public perception point of view but more from a 
reality point of view, giving resources to first responders, 
isn't really working.
    To have a formula that really discounts the threats to 
Washington, DC, to New York, to those areas, to come up with 
the way it is, something is wrong.
    Homeland Security has had a lot of bumps, and I hope we 
have learned from those bumps, and I hope that we have become a 
lot more practical and start focusing on realities, because 
what I heard here today really disturbs me, and I know you have 
to take your position where you are.
    Let me get into some areas. The first thing, what we 
haven't talked about here today, in all fairness, from what I 
understand, and correct me if I am wrong, this program was cut 
by Congress, the State side, by 50 percent and, on the urban 
side, by 14 percent. Is that correct?
    Mr. Foresman. That is correct.
    Mr. Ruppersberger. OK. So you are sitting here attempting 
to defend a system that I think is flawed at this point, but 
you have less money, and that was because of Congress. So we 
have to look at ourselves and see where we are.
    You also have made a comment about what Congress has told 
us to do. I am not sure what you mean by that, and I don't know 
if I have time to get into it.
    But what my concern is and what I would like to really 
determine is where your priorities are. When it comes to 
funding, it is about priorities.
    According to the President, and I believe it, too, we are 
at war with terror. We are at war in another country, but we 
also have a terrorism war. We need to do a lot of things very 
quickly, in Homeland Security and FBI, to find cells, to 
protect our country. But we know right now that we have been 
attacked, and we have a lot of intelligence of where we think 
al Qaeda is going to go.
    You made a couple comments, I wrote some notes, about 
equity and how we need to be equitable. The way I see it, when 
it comes to protecting our citizens from a terrorist attack, it 
is not about equity. It is getting resources to the areas which 
we have chosen, which the President has chosen, what the FBI, 
NSA, CIA have come together--and that is, by the way, what the 
Director of National Intelligence is about, to find out where 
the priorities are and where we are going to put the money. I 
just am concerned with this matrix, that you have grades where 
they are.
    Now, I am going to stop that with you, because I want to 
get to Mr. Schrader. I am from the State of Maryland. You put 
together what you thought was a very good proposal. Let's just 
talk about the State on a risk basis. You have NSA. You have 
Fort Meade. You have proximity to Washington, DC. In the 
region, you have BWI Airport. You have the port of Baltimore, 
and if you want to get nuclear components in and your target 
is, say, Washington, DC, the port of Baltimore is the closest 
port. You have Aberdeen, one of the top testing centers for the 
U.S. military probably in the country. You have all of these 
areas here. To me, that is an exposure issue, a risk issue.
    Now, I think Homeland Security was doing well as far as 
prioritizing money to New York, money to Washington. Now we 
have this new matrix which I perceive is a bureaucratic matrix. 
I would like to hear from you and go through your process, Mr. 
Schrader; where you think the priorities are, what you did with 
respect to your presentation and proposal, and then your 
anxiety on what occurred and how it occurred.
    I would like you to get into an area, too, because I am 
concerned about a lot of this. Even though Mr. Foresman will 
not admit it, I think a lot of it has to do with who has the 
best grant writers and who has the ability to put certain 
people in certain pegs. That might be OK if you are talking 
about education funding, health funding, but when it comes to 
fighting terror, I don't think that is OK.
    Could you answer that?
    Mr. Schrader. Congressman Ruppersberger, let me start by 
saying that the unfortunate part of all of this is, I think DHS 
had the right intent when they started this process.
    Mr. Ruppersberger. I agree with you.
    Mr. Schrader. The approach and the concept was good. Quite 
frankly, the other troubling part of this, and I will get into 
the direct answer, is that if we push them into changing the 
process again----
    Mr. Ruppersberger. By the way, the reason I want you to 
answer the question is I want Mr. Foresman to hear this.
    Mr. Schrader. Yes, sir. It would be very troubling at the 
State and local level to have this process change completely 
again next year. The nice thing about what we found is, it 
seemed to be a good framework on the front end that we can then 
have a multi-year planning process in place, and that is what 
we did.
    We organized the State into regions. We did regional 
bottoms-up data. We put these governance groups together to 
review our statewide program. But our policy in Maryland has 
been one Maryland in coordination with the NCR, because the NCR 
is not an operational unit.
    For example, we have a fusion center, intelligence 
gathering in Maryland, that we do for a very limited amount of 
money through our grant process. It is up in Baltimore, but it 
covers the entire State, and it supports the NCR. So part of 
the process here is, we look at the entire State, we have a 
focus on the NCR, but we also have the central Maryland urban 
area.
    As I said earlier, we had estimated that a reasonable 
amount of money for the State of Maryland would have been about 
$35 million to $40 million. We ended up getting about $24 
million, which, quite frankly, shocked us.
    We did have a very good quality application. So what we 
were assuming was maybe the risk from the two urban areas 
sucked off the risk from the State. I am being told now that is 
not the case.
    So the bottom line is, we have been working collaboratively 
with DHS for over 7 or 8 months now to make sure we put the 
very best application together. We shared a lot of that 
information with the National Capital Region. There was a 
tremendous amount of work that went into the application 
process. And I think it was all for good intention.
    Mr. Ruppersberger. Why do you think you were cut?
    Mr. Schrader. To be honest with you, I am mystified still.
    Mr. Ruppersberger. Why do you think you were cut, based on 
what you have heard here today?
    Mr. Schrader. I don't know. I don't know.
    Chairman Tom Davis. Thank you.
    Mr. Ruppersberger. Can he finish answering?
    Chairman Tom Davis. He doesn't know. He said he didn't 
know.
    Mr. Schrader. Let me make it clearer. If the State program 
was cut in half, we had $20 million last year, we would have 
expected to get $10 million, just if we did nothing, if we 
threw something up against the wall. We ended up getting $8 
million, which didn't make any sense to us. We worked really 
hard and thought we would get more.
    Chairman Tom Davis. Let me just ask, did everybody get less 
than you thought you would get?
    Mr. Crouch. We did.
    Chairman Tom Davis. I guess the other question, if I could 
just tag along, is, what regional Homeland Security programs 
will now have to be underfunded because of the loss of grant 
money? If each of you could take a second and give us an idea.
    Mr. Reiskin. I will start. As I mentioned, we had 
identified about $250 million worth of need and submitted an 
application for $188 million. We didn't expect to get an award 
of $188 million. But all $188 million represents things we 
think are important in advancing the safety and security of the 
region. We now have $46.5 million. So about three-quarters of 
what we had proposed won't get done.
    One major thing I will mention, about $42 million was in 
the area of interoperable communications. Of that, I think $25 
million was to continue the basic infrastructure that we are 
building, a secure, robust, dedicated network for interoperable 
communications. That $42 million alone is the entire amount.
    Chairman Tom Davis. Mr. Crouch, what will be underfunded in 
Virginia, do you think?
    Mr. Crouch. Thank you, Mr. Chairman.
    As Mr. Reiskin indicated, we had identified $188 million in 
grant programs. We have already gone into a process 
anticipating that we wouldn't get that amount, certainly, to 
reduce the amount down to $121. That is pretty much where we 
are in our analysis at this point. So as Deputy Mayor Reiskin 
pointed out, we are going to have to look at that $121 million 
and reduce it to the $46 million.
    I mentioned some of the meritorious programs we are looking 
at earlier, the WMATA operations center backup, the fire 
assistance for the tunnels, programs to deal with special 
needs. All of the programs that were submitted had merit to get 
as far as they did in terms of our submission, and again, they 
had tremendous stakeholder and local first responder 
participation in their development.
    We will now have to begin the process of determining what 
programs we eliminate, whether we can partially fund some with 
anticipation of sustaining them in the future and accomplishing 
those goals but at a slower pace.
    So to identify a specific program at this time, Mr. 
Chairman, I am not able to do that. But, obviously, we think 
all of the programs, the projects that were presented, had 
merit, and obviously, we are not going to be able to proceed 
with all of those.
    Mr. Schrader. Three things will be difficult. We have been 
working closely with Prince George's County to help them with 
their radio system. It will make it more difficult. Our 
Critical Infrastructure Resilience Program, reaching out to the 
private sector and getting the private sector organized in 
Maryland will probably be affected. Then the last thing, we 
have a major focus on maritime security in the maritime 
channels leading up to the Capital Region which would be of 
concern.
    Chairman Tom Davis. Thank you.
    I am sorry, did anybody else want to add anything?
    Mr. Robertson. One addition is that the regional system 
education campaign I think will be quite vulnerable. We cannot 
educate our citizens on a cyclical, every 2 or 3 years, basis. 
We have to do that on an ongoing sustained basis.
    Chairman Tom Davis. Thank you.
    Mrs. Maloney.
    Mrs. Maloney. Thank you, Mr. Chairman.
    Mr. Foresman, if I could ask you, did Booz Allen Hamilton 
give the Department of Homeland recommendations on how to rank 
urban areas based upon information that they gathered from the 
peer review process?
    Mr. Foresman. Congresswoman, Booz Allen Hamilton, just so I 
am clear, they facilitated the peer review groups. Each one of 
the investments were reviewed, and then they were reviewed as a 
package. Booz Allen did the facilitation and rolled up the data 
and gave it to the Federal team members. But the Federal team 
members were there with the peer review process. They did the 
administrative backbone work, if you will, the typing and 
printing and copying and that type of thing.
    Mrs. Maloney. But they did gather together the information 
they had from this peer review process and gave it to the 
Department of Homeland Security; correct?
    Mr. Foresman. Yes, ma'am.
    Mrs. Maloney. And did the Department of Homeland Security 
follow the recommendations of Booz Allen Hamilton?
    Mr. Foresman. They were not Booz Allen Hamilton 
recommendations. They were the peer review recommendations that 
Booz Allen Hamilton was responsible for simply documenting as 
an administrative support function.
    Congresswoman, I will go back. I do not believe there were 
any deviations from the peer review process, but let me provide 
you a clear written response so that I am very accurate on 
that.
    Mrs. Maloney. So you believe they did follow the peer 
review process data compiled and presented to the Department of 
Homeland Security. May this committee have copies of the data 
and the rankings that were provided to the Department of 
Homeland Security from Booz Allen Hamilton that compiled it 
from the peer review process?
    Mr. Foresman. Congresswoman, we are in the process of 
providing Chairman King with a significant amount of 
information. Let me sit down with the internal folks. The 
Secretary and I are committed to being as transparent as we 
can. The only two areas that we are trying to find the right 
accommodation is the classified information, and of course, 
Congress knows how to deal with classified information. That is 
easier.
    And then on the peer review process, peer review processes 
are widely used among Federal agencies. We want to make sure, 
if there were confidentiality agreements with these folks, that 
we respect those agreements. But we will seek to get you 
everything you are looking for.
    Mrs. Maloney. You will provide that information to Mr. King 
and Benny Thompson of the Homeland Security Committee?
    Mr. Foresman. Congresswoman, we have already set the first 
delivery over this past Friday, I believe, the first round of 
material. But we want to get a whole bunch of different 
material and provide it. I mean, we do. We have every reason to 
be very transparent with this process.
    Mrs. Maloney. Was it the peer review process that ranked 
the applications of D.C. and New York City in the bottom 25 
percent?
    Mr. Foresman. The peer review process provided the relative 
measures. How they were actually ranked against it was, you had 
17 peer review teams, and all of this data had to be 
corresponded because one peer review team didn't do all of the 
applications. So just from a simple administrative standpoint, 
someone had to take the findings from the 17 peer review teams 
and mix it altogether to create the ranking, if you will, as 
you describe it.
    Mrs. Maloney. So it was the peer review that ranked New 
York and D.C. in the bottom 25 percent. So my real question 
then is, how in the world can they make a determination of the 
risk and need of D.C. and New York City and others if they, as 
you testified earlier, do not have access to security clearance 
and to real-time threat analysis?
    Mr. Foresman. Congresswoman, I did not testify earlier that 
they did not have access to it. I told you I would provide to 
the committee a written response just to be clear on it. What I 
was offering to you earlier----
    Mrs. Maloney. I was told they did not have access to it.
    Mr. Foresman. Congresswoman, I want to make sure we are 
dealing with facts and not what people have been told, because 
that has led to some emotional debate, and I want to be very 
accurate with you.
    Mrs. Maloney. I would appreciate it if you would let us 
know how many had security clearances.
    Mr. Foresman. Absolutely, but it is not relevant to the 
evaluation of the effectiveness piece. Let me just be very 
clear about that.
    Mrs. Maloney. Recently we had a hearing on the 9/11 
Commission, and both former Governor Kean and Lee Hamilton, a 
bipartisan commission, testified that the best way to combat 
terrorism was intelligence, and that this should be our focus. 
That is why Congress revamped our entire intelligence system 
now into the National Intelligence Director. They also 
testified that the biggest threat that our country faces is a 
so-called dirty bomb, nuclear bomb, set off in New York City.
    My question is, did the peer review council read the 9/11 
Commission report? Did they take into account the intelligence 
efforts of localities which our experts say is the place we 
should be putting our money and our effort in combating 
terrorism? Zarqawi apparently was captured through 
intelligence. We have prevented several attacks that people 
were plotting in New York based on intelligence. We have an 
anti-terrorism intelligence center that works on this.
    I want to know, in your ratings, did you give a higher 
rating to the possibility that a nuclear bomb would go off in a 
particular area and kill hundreds of thousands of people, or 
how was this decision made? Was that part of the rating, since 
the experts say that is our No. 1 threat to our country at this 
point?
    Mr. Foresman. Congresswoman, two parts to that. First, on 
the intelligence piece, you know, both the co-chairs of the 9/
11 Commission are on point with regard to intelligence, and it 
is because of that, because we are following their 
recommendations and other commission recommendations, that we 
have better intelligence, we have better analytical 
understanding of threats.
    Mrs. Maloney. Was that part of the formula?
    Mr. Foresman. That is where I am going to. Congresswoman, 
it was part of the formula, because in order to get to 
consequences, we have to understand the consequences of a wide 
range of plausible scenarios in metropolitan areas.
    But let me be clear again: New York City is at the top of 
the risk ranking. It doesn't own exclusive risks. Chicago, LA, 
and other metropolitan areas do as well, and they also have 
active threats. We have actually seen active investigations 
elsewhere. So, you know, there are statements, and then there 
are facts, and what we are trying to use are factual data to 
inform our risk analysis.
    Chairman Tom Davis. The gentlelady's time has expired.
    Mr. Clay.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Foresman, I have major concerns about fiscal 
responsibility and funding management in regard to these 
grants. Can you tell us how your agency is addressing these 
concerns and what standards have been put in place to ensure 
proper utilization of funds? And, if you could, do you have any 
examples of waste and abuse in this grant program?
    Mr. Foresman. Congressman, my most glowing example is the 
exact reason that we are here today. It is because we simply 
didn't provide funds to urban areas based on some formula and 
send the dollars out the door and say, come back to us and 
report. We asked them to provide various specific investment 
justifications of how the dollars will produce tangible 
results.
    I will tell you that I am actually quite proud of the men 
and women in State and local governments across America. While 
there have been isolated cases of fraud and abuse, I will tell 
you the vast majority of expenditures that I have personally 
seen with these Homeland Security funds have measurably 
improved the safety and security of America. I will tell you, I 
think the rule is the vast majority of these funds are used 
very effectively for their intended purposes.
    Mr. Clay. Thank you.
    Secretary Chertoff has testified before this committee that 
DHS analyzes risk using a three-dimensional matrix. One of our 
colleagues, Ms. Matsui, wrote to Secretary Chertoff asking 
about how the Department assessed risk for her district in 
Sacramento.
    Let me quote from the reply she got: The Department is 
continuing to develop a more robust risk model as it gains the 
capabilities to increase its knowledge of interdependency, 
cascading effects and refined data sets. These issues are 
currently being studied to provide both sector-specific and 
cross-sector modeling through a suite of consequence analysis 
and decision support tools.
    Can you translate this into plain English for me?
    Mr. Foresman. Congressman, I can.
    The tone and tenor of that response is that--and I think 
the question may have come for two reasons: one, because 
Sacramento is one of those areas that was deemed, because of 
the new relative risk ranking, to go off of UASI after this 
current year. The second piece, and I am not sure, I haven't 
seen the specific correspondence, we have had issues with 
levies up there, and we have gotten some letters about, do you 
consider natural disasters and terrorism risks at the same 
time?
    But if it is strictly in the context of the terrorism 
piece, it is because our understanding of the risk nationally 
has changed in other urban areas. From a relative standpoint, 
it has put Sacramento a little lower on the list.
    If we need to get her a clearer response, I will be more 
than happy to take personal charge of getting that done.
    Mr. Clay. Thank you very much.
    Chairman Tom Davis. Mr. Clay, unfortunately, we have to get 
the bus over to the Pentagon, which leaves in 3 minutes.
    Mr. Clay. I understand.
    [The prepared statement of Hon. Wm. Lacy Clay follows:]
    [GRAPHIC] [TIFF OMITTED] T0591.022
    
    [GRAPHIC] [TIFF OMITTED] T0591.023
    
    [GRAPHIC] [TIFF OMITTED] T0591.024
    
    Chairman Tom Davis. I appreciate it. I hate to cut you 
short. A lot of this is Mr. Moran's district. Would you yield 
to him for 1 minute? If you have any questions for the record, 
you can submit them.
    I ask unanimous consent that Resolution 16677, passed 
unanimously by the Council of the District of Columbia, 
resolving that Homeland Security funding be targeted to the 
highest threat jurisdictions be put into the record.
    Without objection, so ordered.
    Mr. Moran.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0591.058
    
    [GRAPHIC] [TIFF OMITTED] T0591.059
    
    [GRAPHIC] [TIFF OMITTED] T0591.060
    
    [GRAPHIC] [TIFF OMITTED] T0591.061
    
    [GRAPHIC] [TIFF OMITTED] T0591.062
    
    [GRAPHIC] [TIFF OMITTED] T0591.063
    
    Mr. Moran. I thank my good friend from Missouri and the 
chairman.
    We have had the hearing now, and you have explained and 
justified and excused your decisions. But what do we do now? 
Where do we go? Might you consider requesting a supplemental 
appropriation to address these needs? Are there other programs 
we could apply to? We need to know more than just an 
explanation. We need to know, what is the next step that we 
should pursue? You heard the needs, and I would like to get 
some guidance.
    The reason our first responders are in decent shape in 
northern Virginia, or at least were for the first couple years, 
Mr. Davis, Mr. Wolf and I earmarked money. Maybe that is what 
we need to do in the future, is just earmark the money to make 
sure it goes to our Nation's priorities.
    Can you give us a quick response? What you would do if you 
were us?
    Mr. Foresman. Congressman, three quick responses for you. 
First, we had $7.5 billion worth of requests for a both pot of 
money that was about $1.7 billion this year. That gives us some 
measurable level of understanding of the scope of the need out 
there.
    Second, we will hopefully, assuming the budget process goes 
forward, we will have the 2007 grant programs. I am committed 
to moving those out the door much quicker and much more 
effectively than we have done in the past. So I hope to have 
those out the door, assuming the budget process goes forward 
quickly, early in the fall.
    And there are other grant programs. We will continue to 
work with the folks here in the NCR to identify those other 
grant programs that may be able to help them address some of 
these issues.
    Chairman Tom Davis. That would be very helpful, if we can 
look at some of these other programs, given their reliance and 
the fact this is the first year we changed it.
    Mr. Moran, I appreciate the question.
    I want to thank you all for being up here.
    Mr. Foresman, thank you particularly for being up here and 
being the chief flak catcher today.
    The committee stands adjourned.
    [Whereupon, at 12:55 p.m., the committee was adjourned.]
    [The prepared statements of Hon. Edolphus Towns, Hon. 
Elijah E. Cummings, and Hon. C.A. Dutch Ruppersberger, and 
additional information submitted for the hearing record 
follow:]

[GRAPHIC] [TIFF OMITTED] T0591.064

[GRAPHIC] [TIFF OMITTED] T0591.065

[GRAPHIC] [TIFF OMITTED] T0591.066

[GRAPHIC] [TIFF OMITTED] T0591.067

[GRAPHIC] [TIFF OMITTED] T0591.019

[GRAPHIC] [TIFF OMITTED] T0591.020

[GRAPHIC] [TIFF OMITTED] T0591.021

[GRAPHIC] [TIFF OMITTED] T0591.070

[GRAPHIC] [TIFF OMITTED] T0591.071

[GRAPHIC] [TIFF OMITTED] T0591.072

[GRAPHIC] [TIFF OMITTED] T0591.073

[GRAPHIC] [TIFF OMITTED] T0591.068

[GRAPHIC] [TIFF OMITTED] T0591.069

[GRAPHIC] [TIFF OMITTED] T0591.074

[GRAPHIC] [TIFF OMITTED] T0591.075

[GRAPHIC] [TIFF OMITTED] T0591.076

[GRAPHIC] [TIFF OMITTED] T0591.077

[GRAPHIC] [TIFF OMITTED] T0591.078

[GRAPHIC] [TIFF OMITTED] T0591.079

[GRAPHIC] [TIFF OMITTED] T0591.080

[GRAPHIC] [TIFF OMITTED] T0591.081

[GRAPHIC] [TIFF OMITTED] T0591.082

[GRAPHIC] [TIFF OMITTED] T0591.083

[GRAPHIC] [TIFF OMITTED] T0591.084

[GRAPHIC] [TIFF OMITTED] T0591.085

[GRAPHIC] [TIFF OMITTED] T0591.086

[GRAPHIC] [TIFF OMITTED] T0591.087

[GRAPHIC] [TIFF OMITTED] T0591.088

[GRAPHIC] [TIFF OMITTED] T0591.089

[GRAPHIC] [TIFF OMITTED] T0591.090

[GRAPHIC] [TIFF OMITTED] T0591.091

[GRAPHIC] [TIFF OMITTED] T0591.092

[GRAPHIC] [TIFF OMITTED] T0591.093

[GRAPHIC] [TIFF OMITTED] T0591.094

[GRAPHIC] [TIFF OMITTED] T0591.095

[GRAPHIC] [TIFF OMITTED] T0591.096

[GRAPHIC] [TIFF OMITTED] T0591.097

[GRAPHIC] [TIFF OMITTED] T0591.098

[GRAPHIC] [TIFF OMITTED] T0591.099

[GRAPHIC] [TIFF OMITTED] T0591.100

[GRAPHIC] [TIFF OMITTED] T0591.101

[GRAPHIC] [TIFF OMITTED] T0591.102

[GRAPHIC] [TIFF OMITTED] T0591.103

[GRAPHIC] [TIFF OMITTED] T0591.104

[GRAPHIC] [TIFF OMITTED] T0591.105

[GRAPHIC] [TIFF OMITTED] T0591.106

[GRAPHIC] [TIFF OMITTED] T0591.107

[GRAPHIC] [TIFF OMITTED] T0591.108

[GRAPHIC] [TIFF OMITTED] T0591.109

[GRAPHIC] [TIFF OMITTED] T0591.110

[GRAPHIC] [TIFF OMITTED] T0591.111

[GRAPHIC] [TIFF OMITTED] T0591.112

[GRAPHIC] [TIFF OMITTED] T0591.113

[GRAPHIC] [TIFF OMITTED] T0591.114

[GRAPHIC] [TIFF OMITTED] T0591.115

[GRAPHIC] [TIFF OMITTED] T0591.116

[GRAPHIC] [TIFF OMITTED] T0591.117

[GRAPHIC] [TIFF OMITTED] T0591.118

[GRAPHIC] [TIFF OMITTED] T0591.119

[GRAPHIC] [TIFF OMITTED] T0591.120

[GRAPHIC] [TIFF OMITTED] T0591.121

                                 <all>

</pre></body></html>
